     Department of the Treasury
Federal Deposit Insurance Corporation


  Evaluation of Federal
 Regulatory Oversight of
 Washington Mutual Bank

           Report No. EVAL-10-002


                April 2010
DATE:                      April 9, 2010

MEMORANDUM TO: John E. Bowman, Acting Director
               Office of Thrift Supervision

                           Sheila C. Bair, Chairman
                           Federal Deposit Insurance Corporation

                               /signed/                      /signed/
FROM:                      Eric M. Thorson                Jon T. Rymer
                           Inspector General              Inspector General
                           Department of the Treasury     Federal Deposit Insurance Corporation


SUBJECT:                   Evaluation of Federal Regulatory Oversight of Washington Mutual
                           Bank (Report No. EVAL-10-002)

Attached for your information is a copy of an evaluation report that the Offices of Inspector General
(OIG) recently completed concerning the supervision of Washington Mutual Bank (WaMu). The
objectives of the evaluation were to (1) determine the cause of WaMu's failure, (2) assess the Office
of Thrift Supervision's (OTS) supervision of WaMu including implementation of Prompt
Corrective Action, (3) evaluate the Federal Deposit Insurance Corporation's (FDIC) supervision and
monitoring of WaMu as deposit insurer, and (4) assess the FDIC's resolution process for WaMu.
The fourth objective will be addressed in a later report after ongoing litigation is completed.

We made three recommendations in the report — one for OTS and two for the FDIC. OTS concurred
with our recommendation and has completed action to address the recommendation. FDIC also
agreed with our recommendations and proposed actions to be completed by December 31, 2010.
FDIC's proposed actions are responsive to our recommendations.

This report will be publicly available on April 16, 2010 and may not be released prior to that
date. Please be advised that recipients of this report must not, under any circumstances, show or
release its contents until April 16, 2010. The report must be safeguarded to prevent publication or
other improper disclosure of the information contained herein. This report is not releasable outside
the OTS and the FDIC without the approval of the Inspector General.

If you have questions concerning the report or would like to schedule a meeting to further discuss
our evaluation results, please contact Marla Freedman, Treasury OIG, at (202) 927-5400, or
Marshall Gentry, FDIC OIG, at (703) 562-6378. Thank you for your assistance with this evaluation.

Attachment

cc: Randy Thomas, OTS                          Christopher Drown, FDIC DSC
    Jason Cave, FDIC                           Arlinda Sothoron, FDIC DIR
Contents


Evaluation Report .........................................................................................................         1

    Results in Brief ........................................................................................................       2

    Section I: Causes of WaMu’s Failure ....................................................................                       8
          WaMu Pursued a High-Risk Lending Strategy................................................                                8
                 High-risk Loan Concentrations .............................................................                       9
                 Systemic Underwriting Weaknesses ....................................................                            10
                 Concentrations of Loans in California and Florida................................                                11
          WaMu Did Not Have Adequate Controls In Place to
          Manage Its High-Risk Strategy .......................................................................                   11
          WaMu Suffered Significant Liquidity Stress in 2008........................................                              12

    Section II: OTS’s Supervision of WaMu................................................................                          15
          OTS Examiners Assigned WaMu Satisfactory Composite Ratings
          Until 2008 Despite Noted Weaknesses...........................................................                          15
          OTS Dedicated Significant Examination Resources to WaMu........................                                         16
          OTS Examiners Identified Concerns with WaMu’s Asset Quality
          but Consistently Rated this Area Satisfactory .................................................                          19
                 OTS Reported Persistent Single Family Residential Underwriting
                 Deficiencies..........................................................................................           20
                 WaMu’s Oversight of Third-Party Originators Needed Improvement ...                                               23
          OTS Consistently Rated Management Satisfactory Despite
          Examiner-Identified Problems .........................................................................                   25
                 WaMu Management Did Not Have Controls in Place
                 to Manage Its High-Risk Strategy.........................................................                        26
                 WaMu Did Not Correct Many Examiner-Identified Weaknesses .........                                               28
          OTS Should Have Done More to Formally Track WaMu’s
          Progress in Correcting Findings and Compel WaMu to Correct
          Deficiencies ....................................................................................................        29
                 OTS Largely Relied on WaMu to Track the Status
                 of Findings Memoranda........................................................................                    29
                 OTS Did Not Use Its Formal Enforcement Power ................................                                    30
                 OTS Issued Two Informal Enforcement Actions in 2008, but They
                 Lacked Sufficient Substance to Compel WaMu to Act .........................                                      31
                 Prompt Corrective Action ....................................................................                    33

    Section III: FDIC Monitoring of WaMu and Insurance Assessments..................                                              35
          Risks Noted in FDIC Monitoring Reports Were Not Reflected
          in WaMu’s Deposit Insurance Premium Payments .........................................                                  36
                  FDIC Monitoring Noted an Increase in Risk at WaMu.........................                                      37
                  FDIC Monitoring Did Not Impact FDIC’s Rating
                  of WaMu’s Risk to the DIF ..................................................................                     39


                            Evaluation of Federal Regulatory Oversight of Washington Mutual Bank                                Page i
                   FDIC Was Precluded from Charging Premiums for
                   Institutions with 1A Risk Ratings...................................................                     40
                   WaMu Did Not Pay Its Full Premium for 2007 and 2008 Because
                   of a Congressionally-Mandated One-Time Credit.........................                                   41
         FDIC Can Take Action When an Institution’s Risk Increases and
         FDIC Made Use of Some of Its Available Tools...............................................                        42
                   FDIC Invoked Back-up Examination Authority in Each
                   Year from 2005 to 2008, but Those Requests Met
                   Resistance from OTS ...................................................................                  42
                   FDIC Did Not Challenge WaMu’s Composite Rating
                   Until 2008 and Encountered Resistance from OTS to
                   Downgrade the Rating ..................................................................                  45
                   FDIC Elected Not to Take Enforcement Action Against
                   WaMu in 2008 Because of Procedural Hurdles ............................                                  48
                   FDIC Had an Opportunity to Make a Minor Adjustment
                   to WaMu’s Insurance Premium in 3Q 2007 but Chose
                   Not to Do So .................................................................................           49

  Section IV: Conclusions and Recommendations .................................................                             51

Appendices
  Appendix 1:         Objectives, Scope, and Methodology ..............................................                     57
  Appendix 2:         Background .....................................................................................      60
  Appendix 3:         Supervision and Enforcement .........................................................                 63
  Appendix 4:         Glossary ..........................................................................................   74
  Appendix 5:         OTS WaMu Examinations and Enforcement Actions ......................                                  78
  Appendix 6:         Management Response ..................................................................                87
  Appendix 7:         Major Contributors to This Report ...................................................                 91
  Appendix 8:         Final Report Distribution ..................................................................          92




                      Evaluation of Federal Regulatory Oversight of Washington Mutual Bank                              Page ii
Abbreviations
  AML           Anti-money Laundering
  BSA           Bank Secrecy Act
  CEO           Chief Executive Officer
  DIF           Deposit Insurance Fund
  DIR           Division of Insurance and Research
  DSC           FDIC Division of Supervision and Consumer Protection
  ERICS         Enterprise Risk Issue Control System
  ERM           Enterprise Risk Management
  FDIC          Federal Deposit Insurance Corporation
  LBMC          Long Beach Mortgage Company
  LIDI          Large Insured Depository Institution
  LTV           Loan to value
  MLR           Material loss review
  MOU           Memorandum of Understanding
  MRBA          Matters requiring board attention
  MSA           Mortgage servicing asset
  OIG           Office of Inspector General
  Option ARMs   Payment option adjustable rate mortgages
  OTS           Office of Thrift Supervision
  PCA           Prompt Corrective Action
  PMI           Private Mortgage Insurance
  ROE           Report of examination
  SFR           Single family residential
  WaMu          Washington Mutual Bank




                Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page iii
        This page intentionally left blank




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page iv
                                                                              Evaluation
OIG                                                                            Report

Department of the Treasury
Federal Deposit Insurance Corporation




                 April 9, 2010

                 John E. Bowman, Acting Director
                 Office of Thrift Supervision

                 Sheila C. Bair, Chairman
                 Federal Deposit Insurance Corporation


                 This report presents the results of our review of the failure of
                 Washington Mutual Bank (WaMu), Seattle, Washington; the Office of
                 Thrift Supervision’s (OTS) supervision of the institution; and the
                 Federal Deposit Insurance Corporation’s (FDIC) monitoring of WaMu
                 for insurance assessment purposes. OTS was the primary federal
                 regulator for WaMu and was statutorily responsible for conducting full-
                 scope examinations to assess WaMu’s safety and soundness and
                 compliance with consumer protection laws and regulations. FDIC was
                 the deposit insurer for WaMu and was responsible for monitoring and
                 assessing WaMu’s risk to the Deposit Insurance Fund (DIF). On
                 September 25, 2008, FDIC facilitated the sale of WaMu to JPMorgan
                 Chase & Co in a closed bank transaction that resulted in no loss to
                 the DIF.

                 Section 38(k) of the Federal Deposit Insurance Act requires the
                 cognizant Inspector General to conduct a material loss review (MLR)
                 of the causes of the failure and primary federal regulatory supervision
                 when the failure causes a loss of $25 million to the DIF or 2 percent of
                 an institution's total assets at the time the FDIC was appointed
                 receiver. Because the FDIC facilitated a sale of WaMu to JPMorgan
                 Chase & Co without incurring a material loss to the DIF, an MLR is not
                 statutorily required. However, given WaMu’s size, the circumstances
                 leading up to WaMu’s sale, and non-DIF losses, such as the loss of
                 shareholder value, the Inspectors General of the Department of the
                 Treasury and FDIC believed that an evaluation of OTS and FDIC
                 actions could provide important information and observations as the
                 Administration and the Congress consider regulatory reform.




                 Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 1
              Our objectives were to (1) identify the causes of WaMu’s failure; (2)
              evaluate OTS’s supervision of WaMu, including implementation of the
              Prompt Corrective Action (PCA) provisions of Section 38(k), if
              required; (3) evaluate FDIC’s monitoring of WaMu in its role as
              deposit insurer, including the manner and extent to which FDIC and
              OTS coordinated oversight of the institution; and (4) assess FDIC’s
              resolution process for WaMu to determine whether that process
              complied with applicable laws, regulations, policies, and procedures.
              This report covers objectives 1, 2, and 3 above. We intend to report
              on objective 4, the assessment of the resolution process, at a later
              date.

              We are presenting our findings in three sections. Section I describes
              the causes of WaMu’s failure, Section II details the supervision of
              WaMu by OTS, and Section III describes FDIC’s monitoring of risk at
              WaMu and FDIC’s assessments for WaMu’s deposit insurance
              premiums.

              We conducted our fieldwork from March 2009 through November
              2009 at OTS headquarters in Washington, DC, and regional office in
              Daly City, California, and FDIC headquarters in Washington, DC,
              regional office in San Francisco, California, and a field office in
              Seattle, Washington. We reviewed supervisory files and interviewed
              key officials involved in regulatory, supervisory, enforcement, and
              deposit insurance matters. We performed our evaluation in
              accordance with the Quality Standards for Inspections. Appendix 1
              contains a more detailed description of our review objectives, scope,
              and methodology.

              We have also included several other appendices to this report.
              Appendix 2 contains background information on WaMu. Appendix 3
              describes OTS’s thrift supervision processes and FDIC’s monitoring
              and insurance assessment processes. Appendix 4 is a glossary of
              terms used in this report. Appendix 5 shows OTS’s examinations of
              WaMu and enforcement actions taken from 2003 through 2008.


Results in Brief
              Causes of WaMu’s Failure. WaMu failed primarily because of
              management’s pursuit of a high-risk lending strategy that included
              liberal underwriting standards and inadequate risk controls. WaMu’s
              high-risk strategy, combined with the housing and mortgage market
              collapse in mid-2007, left WaMu with loan losses, borrowing capacity


              Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 2
limitations, and a falling stock price. In September 2008, depositors
withdrew significant funds after high-profile failures of other financial
institutions and rumors of WaMu’s problems. WaMu was unable to
raise capital to keep pace with depositor withdrawals, prompting OTS
to close the institution on September 25, 2008.

OTS Supervision. As the primary federal regulator, OTS was
responsible for conducting full-scope examinations to assess WaMu’s
safety and soundness and compliance with consumer protection laws.
OTS’s examinations of WaMu identified concerns with WaMu’s high-
risk lending strategy, including repeat findings concerning WaMu’s
single family loan underwriting, management weaknesses, and
inadequate internal controls. However, OTS’s supervision did not
adequately ensure that WaMu corrected those problems early enough
to prevent a failure of the institution. Furthermore, OTS largely relied
on a WaMu system to track the thrift’s progress in implementing
corrective actions on hundreds of OTS examination findings. We
concluded that had OTS implemented its own independent system for
tracking findings memoranda and WaMu’s corrective actions, OTS
could have better assessed WaMu management’s efforts to take
appropriate and timely action.

OTS repeatedly recommended corrective actions through matters
requiring board attention (MRBA) and findings memoranda. In March
2008, OTS took informal enforcement action against WaMu by
requiring its Board of Directors to pass a Resolution to ensure that
weaknesses and concerns with earnings, asset quality, liquidity, and
compliance that led to a composite downgrade to a 3 were promptly
addressed. However, the Resolution that was passed addressed only
near-term liquidity concerns. In September 2008, OTS took another
informal enforcement action when it issued a memorandum of
understanding (MOU) requiring that WaMu correct all items identified
in its MRBAs and findings memoranda by specified due dates. By
then, however, it was too late to prevent the thrift from failing.

We concluded that OTS should have lowered WaMu’s composite
CAMELS rating sooner and taken stronger enforcement action sooner
to force WaMu’s management to correct the problems identified by
OTS. Specifically, given WaMu management’s persistent lack of
progress in correcting OTS-identified weaknesses, we believe OTS
should have followed its own policies and taken formal enforcement
action rather than informal action.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 3
The Treasury Office of Inspector General has made a number of
recommendations to OTS as a result of completed material loss
reviews of failed thrifts during the current economic crisis. These
recommendations pertain to taking more timely formal enforcement
action when circumstances warrant, ensuring that high CAMELS
ratings are properly supported, reminding examiners of the risks
associated with rapid growth and high-risk concentrations, ensuring
thrifts have sound internal risk management systems, ensuring repeat
conditions are reviewed and corrected, and requiring thrifts to hold
adequate capital. OTS has taken or plans to take action in response
to these recommendations. Additionally, OTS established a large
bank unit to oversee regional supervision of institutions over $10
billion. We are making one new recommendation. Specifically, OTS
should use its own internal report of examination system to formally
track the status of examiner recommendations and related thrift
corrective actions. OTS concurred with our recommendation and has
completed action to address it.

FDIC Monitoring and Insurance Assessment. FDIC was the deposit
insurer for WaMu and was responsible for monitoring and assessing
WaMu’s risk to the DIF. As insurer, FDIC has authority to perform its
own examination of WaMu and impose enforcement actions to protect
the DIF, provided statutory and regulatory procedures are followed.
FDIC conducted its required monitoring of WaMu from 2003 to 2008.
As a result of this monitoring, FDIC identified risks with WaMu’s
lending strategy and internal controls. The risks noted in FDIC
monitoring reports were not, however, reflected in WaMu’s deposit
insurance premium payments. This discrepancy occurred because the
deposit insurance regulations rely on OTS examination safety and
soundness ratings and regulatory capital levels to gauge risk and
assess related deposit insurance premiums. Since OTS examination
results were satisfactory, increases in deposit insurance premiums
were not triggered. Further, because of statutory limitations and
Congressionally-mandated credits, WaMu paid $51 million of $215.6
million in deposit insurance assessments during the period 2003 to
2008. FDIC challenged OTS’s safety and soundness ratings of WaMu
in 2008. However, OTS was reluctant to lower its rating of WaMu from
a 3 to a 4 in line with the FDIC’s view. OTS and FDIC resolved the
2008 safety and soundness ratings disagreement 7 days prior to
WaMu’s failure, when OTS lowered its rating to agree with FDIC’s.
However, by that time, the rating downgrade had no impact on
WaMu’s insurance premium assessments and payments.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 4
FDIC has enforcement powers to act when a primary regulator, such
as OTS, does not take action; however, it did not use those powers
for WaMu in 2008 because of the significant procedural steps
necessary to invoke such action. Coordination between FDIC and
OTS was problematic because of the terms of an interagency
agreement governing information sharing and back-up examination
authority, and the inherent tension between the roles of the primary
regulator and the insurer.

According to the terms of the interagency agreement, FDIC needed to
request permission from OTS to allow FDIC examiners to review
information on-site at WaMu in order to better assess WaMu’s risk to
the DIF. Further, under the terms of the interagency agreement, FDIC
had to show that a high level of risk existed for the primary regulator
to grant FDIC access. The logic of the interagency agreement is
circular – FDIC must show a high level of risk to receive access, but
FDIC needs access to information to determine an institution’s risk to
the DIF. OTS resisted providing FDIC examiners greater on-site
access to WaMu information because they did not believe that FDIC
met the requisite need for that information according to the terms of
the interagency agreement and believed FDIC could rely on the work
performed by OTS. Eventually OTS did grant FDIC greater on-site
access at WaMu but limited FDIC’s review of WaMu’s residential loan
files.

We concluded that the interagency agreement did not provide FDIC
with the access to information that it needed to assess WaMu’s risk to
the DIF. There is clearly a need to balance FDIC information needs
and the regulatory burden imposed on a financial institution, but the
current interagency agreement does not allow FDIC sufficient
flexibility to obtain information necessary to assess risk in order to
protect the DIF. Finally, we also concluded that FDIC deposit
insurance regulations are restrictive in prescribing the information
used to assign an institution’s insurance category and premium rate.

We are recommending that the FDIC Chairman, in consultation with
the FDIC Board of Directors, revisit the interagency agreement
governing information access and back-up examinations for large
depository institutions to ensure it provides FDIC with sufficient
access to the information necessary to assess an institution’s risk to
the DIF. Although FDIC is taking steps to clarify access to
systemically important institutions, we believe the interagency
agreement should be modified for all large depository institutions. We
note that risky institutions such as IndyMac Bank, F.S.B. (IndyMac),


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 5
were not considered to be systemically important but nevertheless
caused significant losses to the DIF (the IndyMac failure consumed 24
percent of the DIF balance at the time). Further, we recommend that
the FDIC Chairman, in consultation with the FDIC Board of Directors,
revisit FDIC deposit insurance regulations to ensure those regulations
provide FDIC with the flexibility needed to make its own independent
determination of an institution’s risk to the DIF rather than relying too
heavily on the primary regulator’s assignment of CAMELS ratings and
on the institution’s capital levels. Although FDIC is taking steps to look
at a number of variables that influence an institution’s risk to the DIF,
we believe that the bank failures of this current economic crisis show
that more factors are indicative of an institution’s risk to the DIF than
those currently taken into consideration. FDIC agreed with our
recommendations and proposed actions to be completed by
December 31, 2010. FDIC’s proposed actions are responsive to our
recommendations. Both FDIC recommendations will remain open
until FDIC OIG determine that the agreed-upon corrective actions
have been implemented.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 6
                SECTION I

Causes of WaMu’s Failure




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 7
Causes of WaMu’s Failure
                        WaMu failed because of its management’s pursuit of a high-risk
                        lending strategy coupled with liberal underwriting standards and
                        inadequate risk controls. Ultimately, WaMu’s high-risk strategy broke
                        down when the housing and mortgage market collapsed in mid-2007,
                        leaving WaMu with loan losses, borrowing capacity limitations, and a
                        significantly depressed stock price. In September 2008, WaMu was
                        unable to raise capital to counter significant depositor withdrawals
                        sparked by rumors of WaMu’s problems and other high-profile failures
                        during that time.

                        WaMu Pursued a High-Risk Lending Strategy

                        In 2005, WaMu management made a decision to shift its business
                        strategy away from originating traditional fixed-rate and conforming
                        single family residential loans, towards riskier nontraditional loan
                        products and subprime loans. 1 WaMu pursued the new strategy in
                        anticipation of increased earnings and to compete with Countrywide
                        Financial Corporation, which, in 2005, WaMu’s CEO saw as “arguably
                        the strongest competitor at this time because of system stability,
                        strong profitability, excellent risk management and aggressive growth
                        plans.” 2

                        As shown in Table 1, WaMu estimated in 2006 that its internal profit
                        margin from subprime loans could be more than 10 times the amount
                        for a government-backed loan product and more than 7 times the
                        amount for a fixed-rate loan product.




1
 WaMu defined borrowers with a score of less than 620 on the FICO scale as subprime.
2
 June 1, 2004 memorandum from WaMu’s CEO to the WaMu Board of Directors. Bank of America
purchased Countrywide Financial Corporation in January 2008 for approximately $4.1 billion in stock.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank           Page 8
                        Table 1: WaMu’s Estimated Gain on Sale Margin by Product Type
                                                                                 Return
                                       Loan Product Type                    (in Basis Points)

                          Subprime                                     150
                          Home Equity                                  113
                          Payment Option Adjustable Rate Mortgage      109
                          (Option ARM)
                          Alt-A                                        40
                          Hybrid/ARM                                   25
                          Fixed-rate                                   19
                          Government-backed                            13
                        Source: April 18, 2006 WaMu Board of Directors Presentation

                        High-Risk Loan Concentrations

                        Option ARMs represented as much as half of all loan originations from
                        2003 to 2007 and approximately $59 billion, or 47 percent, of the
                        home loans on WaMu’s balance sheet at the end of 2007. WaMu’s
                        Option ARMs provided borrowers with the choice to pay their monthly
                        mortgages in amounts equal to monthly principal and interest,
                        interest-only, or a minimum monthly payment. Borrowers selected the
                        minimum monthly payment option for 56 percent of the Option ARM
                        portfolio in 2005.

                        The minimum monthly payment was based on an introductory rate,
                        also known as a teaser rate, which was significantly below the market
                        interest rate and was usually in place for only 1 month. After the
                        introductory rate expired, the minimum monthly payment feature
                        introduced two significant risks to WaMu’s portfolio: payment shock 3
                        and negative amortization. 4 WaMu projected that, on average,
                        payment shock increased monthly mortgage amounts by 60 percent.
                        At the end of 2007, 84 percent of the total value of Option ARMs on
                        WaMu’s financial statements was negatively amortizing. WaMu’s
                        December 31, 2007, financial statements included $1.42 billion (7




3
  Payment shock occurred 5 years after the loan was originated (or sooner if negative amortization increased
the loan balance by more than 110 percent of the original loan amount) because the minimum monthly
payment was recomputed using a market interest rate, the larger principal balance, and the remaining term
of the loan.
4
  Negative amortization occurs when the minimum monthly payments made after the expiration of the teaser
rate are insufficient to pay monthly interest cost. Any unpaid interest is added to the principal loan balance
thereby increasing the original loan amount.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank            Page 9
                         percent of interest income) in interest income due to capitalized
                         interest 5 on Option ARMs. 6

                         In addition to Option ARMs, WaMu’s new strategy included
                         underwriting subprime loans, home equity loans, and home equity
                         lines of credit to high-risk borrowers. In line with that strategy, WaMu
                         purchased and originated subprime loans, which represented
                         approximately $16 billion, or 13 percent, of WaMu’s 2007 home loan
                         portfolio. Home equity products totaled $63.5 billion, or 27 percent, of
                         WaMu’s loans secured by real estate in 2007 – a 130 percent
                         increase from 2003.

                         Systemic Underwriting Weaknesses

                         WaMu underwriting policies and practices made what were already
                         inherently high-risk products even riskier. For example, WaMu
                         originated a significant number of loans as “stated income” loans.
                         Stated income loans, sometimes referred to as “low-doc” loans, allow
                         borrowers to simply write in their income on the loan application
                         without providing any supporting documentation. Approximately 90
                         percent of all of WaMu’s home equity loans, 73 percent of Option
                         ARMs, and 50 percent of subprime loans were “stated income” loans.

                         WaMu also originated loans with high loan-to-value ratios.
                         Specifically, WaMu held a significant percentage of loans where the
                         loan amount exceeded 80 percent of the underlying property. For
                         example, WaMu’s 2007 financial statements showed that 44 percent
                         of subprime loans, 35 percent of home equity loans, 7 and 6 percent of
                         Option ARMs were originated for total loan amounts in excess of 80
                         percent of the value of the underlying property. Further, WaMu did not
                         require borrowers to purchase private mortgage insurance (PMI). PMI
                         protects lenders against the loss on default when the loan amount
                         exceeds 80 percent of the home’s value.




5
  According to Financial Accounting Standards Board Statement of Financial Accounting Concepts No.5,
Recognition and Measurement in Financial Statements of Business Enterprises, the capitalized interest on
Option ARMs from negative amortization is recognized as earned interest income if there is a reasonable
expectation of collection.
6
  WaMu included $1.07 billion of capitalized interest in earnings in its December 31, 2006 financial
statements.
7
  Home equity loan-to-value ratio measures the ratio of the original loan amount of the first lien product
(typically a first lien mortgage) and the original loan amount of the home equity loan or line of credit to the
appraised value of the underlying collateral at origination.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank             Page 10
                        WaMu’s review of appraisals establishing the value of single family
                        homes did not always follow standard residential appraisal methods
                        because WaMu allowed a homeowner’s estimate of the value of the
                        home to be included on the form sent from WaMu to third-party
                        appraisers, thereby biasing the appraiser’s evaluation. 8

                        Finally, WaMu did not provide adequate oversight of third-party
                        brokers who were compensated for originating most of WaMu’s
                        mortgages but were not WaMu employees. In 2007, WaMu had only
                        14 WaMu employees overseeing more than 34,000 third-party
                        brokers. Although WaMu used scorecards to evaluate its third-party
                        brokers, the scorecards did not measure the rate of significant
                        underwriting and documentation deficiencies attributable to individual
                        brokers. In 2007, WaMu identified fraud losses attributable to third-
                        party brokers of $51 million for subprime loans and $27 million for
                        prime loans. These matters are under further review by law
                        enforcement agencies.

                        Concentrations of Loans in California and Florida

                        Consistent with its initial business strategy, WaMu made most of its
                        residential loans to borrowers in California and Florida, states that
                        suffered above-average home value depreciation. Additionally, within
                        California, WaMu’s underwriting standards allowed for up to 25
                        percent of loans to be concentrated in one metropolitan statistical
                        area. Table 2 presents information about WaMu’s single family
                        residential loan concentrations.

                        Table 2: WaMu Loan Single Family Residential Loan
                        Concentrations
                                                  Option ARMs        Subprime            Home Equity
                         California                     49%             25%                 53%
                         Florida                        13%             10%                 9%`
                        Source: Washington Mutual Inc, 10-k, December 31, 2007.

                        WaMu Did Not Have Adequate Controls in Place to Manage Its
                        High-Risk Strategy

                        As shown in Table 3, WaMu grew rapidly from a regional to a national
                        mortgage lender through acquisitions and mergers with affiliate
                        companies.


8
  The Uniform Standards of Professional Appraisal Practice Rule 1-2(b) notes that appraisers must not allow
the intended use of an assignment or a client’s objectives to cause the assignment results to be biased.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank         Page 11
Table 3: WaMu Acquisitions and Mergers from 1991 to 2006
   Dates                   Acquisitions                    Total Assets (Billions)
 1991- 2002   Acquired nine institutions                          $137.16
  1/1/2005    Merged with affiliate Washington Mutual              $28.77
              Bank Seattle
  10/1/2005   Acquired Providian National Bank                     $13.10
  3/1/2006    Merged with affiliate Long Beach                     $13.11
              Mortgage Company
  10/1/2006   Acquired Commercial Capital Bank, FSB                    $5.67
Source: FDIC Website BankFind Institution History

WaMu did not fully integrate and consolidate the information
technology systems, risk controls, and policies from the companies it
acquired into a single enterprise-wide risk management (ERM) system
prior to embarking on its new, high-risk strategy. For example, WaMu
had a number of different independent loan origination platforms and
had to manually tie numbers from these systems together in order to
look at WaMu-wide loan statistics. In its examinations from 2004 to
2008, OTS noted that WaMu did not have effective controls in place to
ensure proper risk management. Risk management was especially
important in the case of WaMu because of its high-risk lending
strategy, significant and frequent management changes, corporate
reorganizations, and significant growth. Further, when OTS pointed
out weaknesses in WaMu’s internal controls, WaMu management did
not always take action to resolve those weaknesses.

WaMu Suffered Significant Liquidity Stress in 2008

After the mortgage market meltdown in mid-2007, the effects of
WaMu’s risky products and liberal underwriting began to materialize.
In the third quarter of 2007, WaMu was still profitable, but earnings
were 73 percent less than the second quarter because of loan losses.
In the fourth quarter of 2007 and the first quarter of 2008, WaMu
suffered consecutive $1 billion quarterly losses because of loan
charge-offs and reserves for future loan losses. WaMu improved its
liquidity position in April 2008 through a $7 billion investment in
WaMu’s holding company made by a consortium led by the Texas
Pacific Group. Of the $7 billion investment, WaMu’s holding company
downstreamed $3 billion to WaMu in April 2008 and another $2 billion
to WaMu in July 2008. WaMu’s holding company used $1.4 billion of
the capital raised to pay down holding company debt in June 2008 as
WaMu went on to suffer a $3.2 billion loss in the second quarter of
2008, and WaMu’s share price decreased by 55 percent. OTS officials
told us that WaMu’s stock price was also reduced by the volume of
short selling during 2008. At the same time, the press was reporting


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank           Page 12
                       that federal regulators were taking enforcement action against the
                       institution. 9

                       With the failure of IndyMac in July 2008, WaMu’s liquidity was further
                       stressed as WaMu encountered significant deposit withdrawals. The
                       Federal Home Loan Bank of San Francisco also began to limit
                       WaMu’s borrowing capacity. As a result, WaMu began offering
                       deposit rates in excess of competitors in order to bring in deposits to
                       improve liquidity. Shortly thereafter, Lehman Brothers collapsed on
                       September 15, 2008, and within the following 8 days, WaMu incurred
                       net deposit outflow of $16.7 billion, creating a second liquidity crisis.
                       WaMu’s ability to raise funds to improve its liquidity position was
                       hindered by its borrowing capacity limits, share price decline, portfolio
                       losses, and an anti-dilution clause tied to the $7 billion capital
                       investment. On September 25, 2008, OTS closed WaMu and
                       appointed FDIC as receiver; FDIC contemporaneously sold WaMu to
                       JPMorgan Chase & Co for $1.89 billion. 10




9
  OTS was considering informal enforcement action against WaMu at that time, but that information was not
released to the public.
10
   Certain liabilities were not assumed by JPMorgan Chase & Co.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 13
                SECTION II

OTS’s Supervision of WaMu




 Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 14
OTS’s Supervision of WaMu
                       At over $300 billion in total assets, WaMu was OTS’s largest
                       regulated institution and represented as much as 15 percent of OTS’s
                       total assessment revenue from 2003 to 2008. OTS spent significant
                       resources monitoring and examining WaMu. OTS conducted regular
                       risk assessments and examinations that rated WaMu’s overall
                       performance satisfactory until 2008. Those supervisory efforts also
                       identified the core weaknesses that eventually led to WaMu’s failure –
                       high-risk products, poor underwriting, and weak risk controls.

                       While we saw some evidence that OTS followed up on examination
                       findings, OTS relied largely on WaMu management to track progress
                       in correcting examiner-identified weaknesses and accepted
                       assurances from WaMu management and its Board of Directors that
                       problems would be resolved. OTS, however, did not adequately
                       ensure that WaMu management corrected those weaknesses. The
                       first time OTS took safety and soundness enforcement action against
                       WaMu was in 2008 after the thrift started to incur significant losses. 11
                       OTS also was not required to take PCA against WaMu at any point
                       during its decline. In this regard, despite its significant losses, WaMu
                       was considered well-capitalized until its closure.

                       OTS Examiners Assigned WaMu Satisfactory Composite Ratings
                       Until 2008 Despite Noted Weaknesses

                       A principal objective of the CAMELS rating process is to identify those
                       associations that pose a risk of failure and merit more than normal
                       supervisory attention. 12 The CAMELS composite rating is a qualitative
                       assessment based on a careful review of component ratings, which
                       evaluate, among other things, capital adequacy in relation to risk
                       profile and operations; asset quality relative to credit risk associated
                       with the loan and investment portfolios; whether management has
                       established appropriate policies, procedures, and practices regarding
                       acceptable risk exposures; and the extent of the thrift’s liquid assets.
                       Table 4 provides standard definitions of each CAMELS composite
                       rating level.




11
   OTS did impose enforcement actions in 2007 related to the Bank Secrecy Act and consumer compliance.
See Table 6.
12
   OTS Examination Handbook, Section 070, page 070.6.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 15
                            Table 4: CAMELS Composite Rating Definitions
                               1   Sound in every respect
                               2   Fundamentally sound
                               3   Exhibits some degree of supervisory concern in one or
                                   more of the component areas (i.e., capital adequacy,
                                   asset quality, management, earnings, liquidity, sensitivity
                                   to market risk)
                              4 Generally exhibits unsafe and unsound practices or
                                   conditions
                              5 Exhibits extremely unsafe and unsound practices or
                                   conditions; exhibits a critically deficient performance;
                                   often contains inadequate risk management practices
                                   relative to the institution’s size, complexity, and risk
                                   profile; and is of the greatest supervisory concern
                            Source: OTS Examination Handbook, Section 070, pages 070A.3 & .4.

                        From 2001 to 2007, OTS consistently rated WaMu a CAMELS
                        composite 2. As shown in Table 4, a composite 2 rating reflects the
                        agency’s assessment that an institution is fundamentally sound. The
                        CAMELS composite criteria for a 2 also states that such institutions
                        have only moderate weaknesses that are within the board’s and
                        management’s capability and willingness to correct, and have
                        satisfactory risk management practices relative to the institution’s size,
                        complexity, and risk profile. Institutions in this category are stable and
                        capable of withstanding business fluctuations. As discussed later, the
                        composite rating is a critical factor in supporting the need for
                        enforcement actions and in determining the assessment rate an
                        institution should pay for deposit insurance purposes.

                        Given the multiple repeat findings related to asset quality and
                        management, and considering the definitions of the composite ratings,
                        it is difficult to understand how OTS continued to assign WaMu a
                        composite 2-rating year after year. It was not until WaMu began
                        experiencing losses at the end of 2007 and into 2008 that OTS
                        lowered WaMu’s CAMELS composite rating to 3 in February 2008,
                        and ultimately to 4 in September 2008.

                        OTS Dedicated Significant Examination Resources to WaMu

                        As discussed earlier, WaMu was OTS’s largest supervised institution,
                        representing between 12 to 15 percent of OTS’s total assessment
                        revenue from 2003 through 2008. 13 OTS assigned significant
                        resources to examine and monitor WaMu, including dedicated staff
13
  OTS’s operating budget is principally funded by periodic assessments to the thrift industry. The total
periodic assessments paid by regulated thrifts for 2008 amounted to $267.3 million.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank               Page 16
and numerous specialists. Table 5 shows the number of OTS staff
hours spent monitoring and examining WaMu from 2003 to 2008.

    Table 5: Number of OTS WaMu Examination Hours
     Examination Start Date      WaMu Examination Hours*
                    3/17/2003               17,825
                    3/15/2004               22,838
                    3/14/2005               29,545
                    3/13/2006               30,784
                     1/8/2007               31,521
                    9/10/2007               31,273

*
 Hours are totaled for safety and soundness examinations, information technology
examinations, and compliance examinations.
Source: OTS Examination Activity Hours Detail Report.

In compliance with policy, OTS developed and maintained
comprehensive risk assessments of WaMu during the 2003 to 2008
review periods. The risk assessments were used by OTS to determine
the scope, staffing, and key areas for examinations. OTS conducted
full-scope annual examinations as required from 2003 to 2006 and
implemented a continuous supervision program for the 2007 and 2008
examination. Those examination efforts resulted in Reports of
Examination (ROE) as well as findings memoranda.

Table 6 summarizes OTS’s safety and soundness ratings, and
supervisory actions for WaMu. Appendix 5 provides details of
significant matters and other examination findings for 2003 to 2008.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank       Page 17
                    Table 6: OTS Ratings and Supervisory Action for WaMu 2003-2008
     Date of       Examination      Examination       CAMELS             Supervisory Action
     Report        Start Date       Completion        Ratings
     Transmittal                    Date              (component/
                                                      composite)
     08-22-2003    03-17-2003       07-31-2003        222223/2           None
     09-13-2004    03-15-2004       08-12-2004        222223/2           None
     08-29-2005    03-14-2005       08-19-2005        222222/2           None
     08-29-2006    03-13-2006       08-09-2006        222222/2           None
     09-18-2007    01-08-2007       08-27-2007        222212/2           Cease and desist order related to
                                                                         deficiencies in Bank Secrecy Act
                                                                         and anti-money laundering
                                                                         compliance issued on October 17,
                                                                         2007.
     09-19-2008    09-10-2007       09-08-2008        Interim ratings    In February 2008, OTS required a
                                                      change effective   Board Resolution (an informal
                                                      2/27/2008 -        enforcement action) to address
                                                      232432/3           the general areas of concern in
                                                                         asset quality, earnings, and
                                                      Rating as of       liquidity. WaMu adopted the
                                                      6/30/2008 -        Board Resolution on March 17,
                                                      343432/3           2008.

                                                      Changed to    In July 2008, OTS requested a
                                                      343442/4      Memorandum of Understanding
                                                      on 9-18-2008  (MOU) (an informal enforcement
                                                                    action) to address the 2008
                                                                    examination findings; the MOU
                                                                    was signed September 7, 2008.
                                                                    The ratings were changed on
                                                                    September 18, 2008.
                        Source: OTS ROEs for WaMu and Supervisory Documents.

                        In addition to ROEs, OTS issued safety and soundness-related
                        findings memoranda to WaMu management during the examination
                        cycles. 14 These findings memoranda consistently identified issues and
                        weaknesses associated with WaMu operations, asset quality, and risk
                        management. OTS categorized findings within the memoranda into
                        three levels of severity: criticisms -- primary concerns requiring
                        corrective action, inclusion in the ROE, and a written response from
                        management; recommendations -- secondary concerns requiring
                        corrective action, possible inclusion in the ROE, and discussion at
                        examination exit meetings and WaMu Board meetings; and
                        observations — weaknesses not of regulatory concern, but which
                        could improve the bank’s operating effectiveness if addressed.

14
   OTS also issued findings memoranda in the areas of Compliance and Information Technology (IT). We did
not include Compliance or IT in our review because neither area was directly related to the cause of WaMu’s
failure.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 18
                          Observations generally were not included in the ROE. As shown in
                          Table 7, OTS examiners identified and reported a large number of
                          findings at WaMu from 2003 to 2008.

                          Table 7: OTS Findings Memoranda Issued to WaMu in 2003-2008
  Year of         Findings     Individual    Criticisms    Recommendations       Observations      Not
Examination      Memoranda      Findings                                                         Available
    2003             46            148           25                96                  27            -
    2004             36            116           11                90                  15            -
    2005             38             64           11                47                   4           2
    2006             17             45           3                 41                   1            -
    2007             25             68           1                 36                  31            -
    2008             31            104           16                70                  18            -
Totals               193           545           67                380                 96           2
                          Source: Analysis of OTS Findings Memoranda issued to WaMu from 2003 to
                          2008.

                          These findings memoranda received varying treatment in the ROEs.
                          In some cases, problems requiring immediate attention from
                          management appeared in ROEs in a separate section entitled
                          “Matters Requiring Board Attention,” while other findings memoranda
                          were either specifically mentioned in discussion of the CAMELS
                          components or generally mentioned in the “Corrective Actions”
                          sections of the ROE. WaMu’s resolution of these findings is discussed
                          in more detail later in the report.

                          OTS Examiners Identified Concerns with WaMu’s Asset Quality
                          but Consistently Rated this Area Satisfactory

                          Asset quality is one of the most critical areas in determining the
                          overall condition of a bank. The primary factor affecting overall asset
                          quality is the quality of the loan portfolio and the credit administration
                          program. OTS examination procedures state that the asset quality
                          rating reflects the quantity of existing and potential credit risk
                          associated with the loan and investment portfolios, other real estate
                          owned, and other assets, as well as off-balance sheet transactions,
                          and should reflect the ability of management to identify, measure,
                          monitor, and control credit risk. 15

                          OTS examiners repeatedly identified issues and weaknesses
                          associated with WaMu’s asset quality -- in particular, findings related
                          to single family residential loan underwriting and oversight of third-
                          party brokers. Nevertheless, OTS consistently assessed WaMu’s
                          asset quality as satisfactory, with a rating of 2 until February 2008
  15
       OTS Examination Handbook, Section 070, page 070A.8.


                          Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 19
when asset quality was downgraded on an interim basis to a 3. The 3
rating for asset quality was maintained until September 2008 when
the asset quality rating was dropped to a 4. Asset quality ratings
definitions are shown in Table 8 below.

Table 8: Asset Quality Rating Definitions
    1    Strong asset quality and credit administration practices
    2    Satisfactory asset quality and credit administration
         practices
    3 Less than satisfactory asset quality and credit
         administration practices
    4 Deficient asset quality or credit administration practices
    5 Critically deficient asset quality or credit administration
         practices
Source: OTS Examination Handbook, Section 070, page 070A.7

We asked OTS examiners why they did not lower WaMu’s asset
quality ratings earlier. Examiners responded that even though
underwriting and risk management practices were less than
satisfactory, WaMu was making money and loans were performing.
Accordingly, the examiners thought it would have been difficult to
lower WaMu’s asset quality rating. In this regard, OTS guidance
provides that: “[if] an association has a high exposure to credit risk, it
is not sufficient to demonstrate that the loans are profitable or that the
association has not experienced significant losses in the near term.”
Given this guidance, the significance of single family residential
lending to WaMu’s business, and the fact that the OTS repeatedly
brought the same issues related to asset quality to the attention of
WaMu management and the issues remained uncorrected, we find it
difficult to understand how OTS could assign WaMu a satisfactory
asset quality 2-rating for so long. Assigning a satisfactory rating when
conditions are not satisfactory sends a mixed and inappropriate
supervisory message to the institution and its board, and is contrary to
the very purpose for which regulators use the CAMELS rating system.

OTS Reported Persistent Single Family Residential Underwriting
Deficiencies

OTS identified a number of significant concerns with WaMu’s single
family residential underwriting practices in risk assessment
documents, findings memoranda, and ROEs from 2003 to 2008.
Those concerns included questions about the reasonableness of
stated incomes contained in loan documents, numerous underwriting
exceptions, miscalculations of loan-to-value ratios, and missing or



Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 20
                         inadequate documentation. Underwriting was especially important at
                         WaMu because WaMu’s single family residential loan portfolio
                         represented more than 60 percent of total assets. Further, the fact
                         that many of WaMu’s single family residential loans were Option
                         ARMs further underscored the risky nature of this loan portfolio.

                         OTS’s Examination Handbook discusses the importance of
                         underwriting, noting that “[a] savings association’s first defense
                         against excessive credit risk is the initial credit-granting process.” 16
                         OTS reviewed WaMu’s underwriting and included MRBAs related to
                         single family residential loan underwriting in the 2004 to 2008 ROEs
                         and included MRBAs related to subprime lending and subprime
                         underwriting in the 2004, 2006, and 2007 ROEs. For example:

                                2003 and 2004 - OTS reported that underwriting of single
                                 family residential loans, WaMu’s core loan activity, was less
                                 than satisfactory. In 2004, OTS identified causes for
                                 underwriting deficiencies, including: (1) a less than optimal
                                 organizational structure with multiple origination platforms (in
                                 part due to merger activity) and inconsistent origination
                                 procedures, (2) a sales culture focused on building market
                                 share, and (3) extremely high origination volumes fueled by the
                                 low interest rate environment. OTS recommended that
                                 management define and monitor specific loan quality goals tied
                                 to incentive compensation programs for the appropriate
                                 managers.

                                2005 - OTS reported that although overall single family
                                 residential loan quality and performance trends were stable,
                                 the thrift’s underwriting remained less than satisfactory. OTS
                                 noted that this concern had been expressed at several prior
                                 exams as well as internal reviews and that the examiners
                                 remained concerned with the number of underwriting
                                 exceptions and with issues that evidenced a lack of compliance
                                 with bank policy. The ROE stated “We believe the level of
                                 deficiencies, if left unchecked, could erode the credit quality of
                                 the portfolio. Our concerns are increased when the risk profile
                                 of the portfolio is considered, including concentrations in Option
                                 ARM loans to higher-risk borrowers, in low and limited
                                 documentation loans, and loans with subprime or higher-risk
                                 characteristics. We are concerned further that the current
                                 market environment is masking potentially higher credit risk.”

16
     OTS Examination Handbook, Section 201, page 201.8.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 21
       2006 to 2007 - OTS reported that single family residential loan
        and prime underwriting had improved to marginally satisfactory
        and generally satisfactory, respectively. However, OTS
        reported concerns with subprime underwriting practices by
        Long Beach Mortgage Company (LBMC), a WaMu affiliate that
        merged with WaMu on March 1, 2006. OTS reported that
        subprime underwriting practices remained less than
        satisfactory and cited exceptions related to the miscalculation
        of debt-to-income ratios, reasonableness of stated incomes on
        loan documents, and borrower acknowledgement of payment
        shock. Examiners found that underwriting exceptions were
        more prevalent on higher-risk loans. (It should be noted that
        WaMu discontinued subprime lending in the fourth quarter of
        2007.)

       2008 - OTS reported that WaMu management had not
        effectively managed underwriting risk despite it having been
        identified as an issue for some time by WaMu’s Corporate
        Credit Review Group and WaMu’s Internal Audit staff. In this
        regard, OTS had cautioned management, over several
        examinations, about the level of layered risks (multiple risk
        factors such as high loan-to-values, stated income lending,
        option ARMs, and geographic concentration) in the single
        family loan portfolio. The examination criticized WaMu’s stated
        income lending practices; reliance on an automated
        underwriting system without the involvement of experienced
        underwriters; and the prudence of Option ARM lending to
        foreign nationals without any credit, income, or asset
        verification.

In addition to the ROEs, OTS examiners repeatedly issued findings
memoranda from 2003 through 2008 related to various aspects of
single family residential loan underwriting deficiencies. OTS also
consistently included concerns about the underwriting practices in
OTS risk assessments, field visitations, and regulatory profile reviews.
During the period 2005 through 2007, while OTS was issuing multiple
repeat findings pertaining to single family residential loan
underwriting, WaMu originated almost $618 billion in single family
residential loans.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 22
                       WaMu’s Oversight of Third-Party Originators Needed Improvement

                       In addition to retail loans originated by WaMu employees, WaMu also
                       originated and purchased wholesale loans through a network of
                       brokers and correspondent banks. 17 Wholesale loan channels
                       represented 48 to 70 percent of WaMu’s total single family residential
                       loan production during the years 2003 to 2007. 18 The financial
                       incentive to use wholesale loan channels for production was
                       significant. According to an April 2006 internal presentation to the
                       WaMu Board, it cost WaMu about 66 percent less to close a
                       wholesale loan ($1,809 per loan) than it did to close a retail loan
                       ($5,273). Thus, WaMu was able to reduce its cost of operations
                       through the use of third-party originators but had far less oversight
                       over the quality of originations.

                       OTS’s Examination Handbook states that, in reviewing the wholesale
                       production activities of savings associations, examiners should
                       confirm how savings associations define, use, and monitor brokers,
                       correspondents, and other third-party arrangements. 19 We saw
                       evidence that OTS examiners reviewed WaMu’s oversight of third-
                       party originators and reported weaknesses during several
                       examinations. Examination findings included underwriting
                       weaknesses and deficient processes and tools for approving and
                       monitoring third-party originators. For example:

                              2003 - OTS reported underwriting problems and related
                               weaknesses in correspondent and wholesale broker channel
                               management, recourse administration, and quality assurance.
                               OTS’s review disclosed the need for more comprehensive
                               supervision of outside loan originators. OTS concluded that the
                               annual review and monitoring process for wholesale mortgage
                               brokers was inadequate, as management did not consider key
                               performance indicators such as delinquency rates and fraud
                               incidents. OTS also found that the approval and monitoring
                               process for correspondent lenders needed improvement. OTS
                               noted that WaMu’s internal auditors had reported similar
                               weaknesses and that OTS had reported wholesale broker
                               concerns in a prior examination. OTS also reported that


17
   Brokers concentrate on finding customers in need of financing and process the loan application and
mortgage documents. Correspondents deal with the customer, then close and fund the loan before selling
the loan to an investor.
18
   WaMu exited wholesale lending channels in 2008 as losses mounted.
19
   OTS Examination Handbook Section 750, page 750.12.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank       Page 23
                                 WaMu’s Residential Quality Assurance (RQA) office 20 had
                                 reviewed mortgage loan production and reported a high rate of
                                 unacceptable loans for all channels of production. In this
                                 regard, the RQA office reported an error rate of 29 percent for
                                 wholesale mortgage loans, more than triple the acceptable
                                 error rate of 8 percent established by WaMu.

                                2004 - OTS concluded that management’s oversight of third-
                                 party originators had improved from the prior examination. OTS
                                 noted that approximately 20,000 brokers and correspondents
                                 generated most of WaMu’s single family residential loan
                                 originations, and such volume was understandably challenging
                                 to manage. OTS noted that WaMu had implemented a tracking
                                 and risk system for approving and monitoring third-party
                                 originators. The conclusions in the ROE, however, were at
                                 odds with a 2004 findings memorandum prepared by OTS to
                                 communicate the results of a single family residential loan file
                                 review. In that findings memorandum, OTS reported
                                 underwriting and documentation inconsistencies, particularly in
                                 the brokered channel, including inconsistent borrower credit
                                 classifications and missing employment, asset, and income
                                 verification for “full-doc” loans.

                                2006 - The 2006 examination reported that 68 percent of
                                 WaMu’s $207.7 billion in loan originations during 2005 were via
                                 wholesale broker and correspondent channels and noted that
                                 WaMu was restructuring the units responsible for overseeing
                                 brokers and correspondents and redefining processes. OTS
                                 findings memoranda in 2006 and 2007 reported that WaMu
                                 needed to improve

                                 •    review processes for third-parties exceeding key
                                      performance indicators,
                                 •    reporting of early payment defaults and other fraud
                                      indicators at the individual third-party level, 21
                                 •    procedures for assessing underwriting for third-party
                                      originators who had been placed on a watch list, and
                                 •    procedures for approving and annually re-certifying
                                      continued association with brokers.
20
   The Residential Quality Assurance office was an asset review group in WaMu’s Home Loans and
Insurance Services Group that was responsible for conducting origination, purchase, and servicing quality
assurance activities for WaMu’s single family residential loan portfolio.
21
   A loan that becomes delinquent or goes into default within its first year is a strong indicator of possible
mortgage fraud.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank             Page 24
                                2007 - The 2007 examination stated that WaMu’s policies and
                                 procedures, performance monitoring scorecards, and watchlist
                                 process for overseeing brokers needed improvement. An OTS
                                 findings memorandum associated with the examination period
                                 noted that WaMu had 14 full-time equivalent employees
                                 responsible for third-party oversight of more than
                                 34,000 brokers. The findings memorandum noted
                                 shortcomings with WaMu’s broker credit administration policies
                                 and third-party oversight scorecard. Further, OTS reported that
                                 WaMu had discontinued all remaining lending through its
                                 subprime mortgage channel and the purchase and
                                 sale/securitization of loans in the fourth quarter of 2007.

                         In April 2008, WaMu management announced that it would
                         discontinue all wholesale channel lending. In the ROE for 2008, OTS
                         referenced prime loan fraud losses totaling $27 million and subprime
                         fraud losses totaling $51 million for 2007 reported by WaMu, and OTS
                         noted that the majority of the fraud losses for both portfolios was
                         attributed to the wholesale channel. These matters are under further
                         review by law enforcement agencies.

                         OTS Consistently Rated Management Satisfactory Despite
                         Examiner-Identified Problems

                         OTS’s guidance states that one of the most important objectives of an
                         examination is to evaluate the quality and effectiveness of a savings
                         association’s management, and that the success or failure of almost
                         every facet of operations relates directly to management. 22
                         Management ratings definitions are shown in Table 10 below. OTS
                         reported concerns regarding WaMu management in ROEs, findings
                         memoranda, and risk assessment reports from 2003 through 2008.
                         The primary areas of concern were the lack of effective internal
                         controls and an insufficient commitment on the part of WaMu’s Board
                         and management to take action to address OTS-identified
                         weaknesses.




22
     OTS Examination Handbook, Section 330, page 330.1.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 25
                           Table 10: Management Rating Definitions
                            1    Strong performance by management and the Board of
                                 Directors and strong risk management practices
                            2 Satisfactory performance by management and the Board
                                 of Directors and satisfactory risk management practices
                            3 Improvement needed in management and Board of
                                 Directors performance or less than satisfactory risk
                                 management practices
                            4 Deficient management and Board of Directors
                                 performance or inadequate risk management practices
                            5 Critically deficient management and Board of Directors
                                 performance or risk management practices
                           Source: OTS Examination Handbook, Sections 070A.8 and 070A.9.

                         Despite noted concerns, OTS generally reported that WaMu’s Board
                         oversight and management’s performance was satisfactory through
                         2007 and rated the CAMELS management component a 2 in those
                         examinations. It was not until 2008 that OTS reported that WaMu’s
                         Board oversight and management’s performance was less than
                         satisfactory and downgraded the CAMELS management component
                         to a 3. OTS faulted the WaMu Board and management for not
                         adequately addressing MRBAs from prior examinations, including
                         single family mortgage loan underwriting weaknesses and an
                         ineffective ERM function. OTS concluded that failure to address those
                         weaknesses in a timely manner was exacerbating credit losses and
                         exposing WaMu to heightened reputation risk. Based on the
                         management component ratings definitions and WaMu’s lack of
                         progress in addressing OTS-identified weaknesses, we believe that a
                         less than satisfactory management component rating should have
                         been assigned to WaMu sooner.

                         WaMu Management Did Not Have Controls in Place to Manage Its
                         High-Risk Strategy

                         The primary concern noted by OTS within the management
                         component of the examinations from 2004 to 2008 was that WaMu did
                         not have an effective ERM strategy in place to manage the risks in its
                         portfolio. OTS guidance notes the interrelationship between ERM and
                         corporate governance and recognizes that one of the fundamental
                         concepts of ERM is to provide management and the board of directors
                         with reasonable assurance that the savings association is managing
                         its risk. 23 Risk management was especially important in the case of
                         WaMu because of its size, high-risk lending strategy, continuous
                         restructuring, and changes in management.
23
     OTS Examination Handbook, Sections 310, pages 310.2 and 310.3.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 26
                        OTS repeatedly identified WaMu’s ERM function as a significant issue
                        in the MRBAs, requiring the attention of the WaMu Board to

                        •   monitor and obtain reports from management on the status of the
                            ERM function in terms of effectiveness and resource adequacy
                            (2004 and 2005 ROEs);
                        •   establish an ERM strategy in order to integrate the acquisition of
                            Providian (2005); 24
                        •   maintain open dialog between the WaMu Board, Chief Enterprise
                            Risk Officer, and the thrift’s independent auditor (2005 and 2006
                            ROEs); and
                        •   continue to monitor and obtain reports from management on the
                            status of ERM to ensure its effectiveness and adequacy of
                            resources and ensure that ERM provided an important check and
                            balance on profit-oriented units, which warranted strong Board
                            commitment and support, particularly given WaMu’s strategy
                            involving increased credit risk (2006, 2007, and 2008 ROEs).

                        In addition to the ERM issues, OTS also reported management-
                        related MRBAs regarding the quality of information presented by
                        WaMu management to its Board, the adequacy of the information to
                        allow its Board to assess WaMu’s risk, and the Board’s committee
                        structure.

                        Findings memoranda also reported concerns with ERM, corporate risk
                        oversight, internal audit, and suspected fraud reporting. For example,
                        in a 2004 findings memorandum, OTS reported that WaMu
                        management was not providing timely responses to reports issued by
                        the thrift’s Corporate Risk Oversight Group. 25 In a 2008 findings
                        memorandum, examiners disclosed concerns about the limited scope
                        of some internal audits and the sufficiency of actions taken to resolve
                        certain internal audit findings.

                        OTS’s field visit reports, regulatory profiles, 26 and risk assessments
                        also showed that WaMu displayed weaknesses in ERM and general
                        management oversight. For example,


24
   WaMu acquired Providian National Bank on October 1, 2005. Providian had a large subprime credit card
operation.
25
   WaMu’s Corporate Risk Oversight Group was located in ERM and had responsibility for WaMu’s Internal
Asset Review function, Credit Oversight function, and Quality Assurance and Compliance testing.
26
   Regulatory profiles were quarterly reports developed by OTS and provided quarterly financial ratios and
narrative describing events at WaMu and the status of many of the CAMELS components.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank         Page 27
                         •   2003 Field Visit - Examiners determined that increased risks
                             related to organizational changes, less favorable market
                             conditions, and volatility of earnings also impacted capital
                             adequacy and required management intervention. Examiners
                             expressed concerns about the spans of control and depth of direct
                             experience among key individuals leading important WaMu
                             functions. Examiners noted that, although the ratings given at the
                             prior examination remained appropriate, some of the ratings were
                             predicated on OTS’s expectations of continued forward progress
                             by WaMu.
                         •   2005 Regulatory Profile - OTS noted that organizational
                             adjustments and management changes had failed to stabilize
                             WaMu and stressed the need to have appropriate performance
                             measures across all business lines.
                         •   2006 Regulatory Profile - Examiners continued to note WaMu’s
                             organizational and management instability.
                         •   2007 Risk Assessment - Examiners stated that management and
                             Board oversight had been satisfactory for the past three
                             examinations but expressed reservations about management’s
                             ability to correct persistent weaknesses in WaMu’s home lending
                             operation.
                         •   2008 Risk Assessment - Examiners stated that ERM was
                             continuing to evolve but was experiencing turnover in key
                             positions.

                         WaMu Did Not Correct Many Examiner-Identified Weaknesses

                         OTS examination reports directed that WaMu take corrective actions
                         in response to examination findings. Nevertheless, WaMu
                         management did not make lasting or complete improvements to its
                         risk management programs and asset quality despite repeated
                         mention of these areas by OTS. OTS guidance notes that governance
                         is strong when the Board addresses and corrects problems early.
                         That guidance also states that where governance is weak or
                         nonexistent, problems remain uncorrected, possibly resulting in the
                         association’s failure. 27

                         In an effort to determine the extent to which WaMu addressed OTS
                         findings, we reviewed 545 OTS findings reported in 193 findings
                         memoranda and WaMu’s responses to ROEs for 2003 through 2007.
                         WaMu tracked the status of corrective actions for findings memoranda
                         in a tracking system called Enterprise Risk Issue Control System

27
     OTS Examination Handbook, Section 310, page 310.1.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 28
                       (ERICS). Based on our review of eight ERICS reports and other
                       documents, we were unable to readily determine whether a number of
                       findings had been closed and resolved. As discussed later, after some
                       effort, OTS was able to provide evidence that some of those findings
                       had been closed.

                       Additionally, a number of findings memoranda were included as
                       repeat findings, indicating the issue was identified during more than
                       one examination cycle. For example, 18 percent of the criticisms
                       between 2003 and 2006 were categorized as repeat findings. WaMu
                       discontinued indicating in ERICS whether a finding was a repeat
                       finding in 2006. Thus, the number of repeat findings could have been
                       greater.

                       OTS Should Have Done More to Formally Track WaMu’s Progress
                       in Correcting Findings and Compel WaMu to Correct Deficiencies

                       OTS largely relied on WaMu’s ERICS system to track corrective
                       actions. Given the size of WaMu and the number of findings, we
                       concluded that OTS needed a more formal, independent system to
                       track its findings. Further, although OTS had formal enforcement
                       action authority to compel WaMu to correct deficiencies, OTS never
                       took such action. OTS did impose two informal enforcement actions in
                       2008 -- a Board Resolution and an MOU -- but those measures lacked
                       sufficient substance to require action on the part of WaMu and were
                       too late to make a significant difference. Finally, OTS was not required
                       to invoke PCA because WaMu remained well-capitalized until its
                       closure.

                       OTS Largely Relied on WaMu to Track the Status of Findings
                       Memoranda

                       OTS largely relied on WaMu’s ERICS system to track WaMu’s
                       progress in implementing corrective actions for the 545 OTS findings
                       identified from 2003 to 2008. 28 OTS examiners told us that they had a
                       process for reviewing WaMu’s corrective actions that was
                       independent of the finding status noted in ERICS. In this regard, OTS
                       officials stated that during an examination, OTS divided the ERICS
                       report among the OTS examiners based upon each examiner’s area
                       of responsibility. Each OTS examiner was responsible for determining
                       whether ERICS properly reflected the status of findings for their area.
                       The examiner then signed off on the respective ERICS report.

28
 OTS also relied on WaMu to track the status of information technology and compliance issues.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank     Page 29
                       We reviewed eight ERICS status reports for the years 2003 through
                       2008 and found evidence of examiner sign-off for certain findings on
                       only three of those reports. We provided OTS with information about
                       39 criticisms that appeared to be open in ERICS reports that we
                       reviewed and asked OTS to provide evidence of each finding’s status.
                       OTS’s response showed that about 41 percent (16) of the criticisms
                       were issued during 2008 and remained unresolved as of WaMu’s
                       failure in September 2008. OTS also provided references to ROEs or
                       other documents as evidence of closure for 21 percent (8) of the
                       criticisms. OTS provided us with ERICS reports with handwritten OTS
                       notes as evidence of closure for an additional 21 percent (8) of the
                       criticisms. For the remaining findings (7), OTS either did not provide
                       evidence as to the findings’ status or stated that the findings had been
                       replaced by new findings memoranda pertaining to a repeat finding
                       area. While OTS was ultimately able to provide some additional
                       information about the status of certain criticisms, doing so required
                       considerable time and effort on OTS’s part. We concluded that had
                       OTS implemented its own independent system for tracking the status
                       of findings memoranda and WaMu’s corrective actions, OTS would
                       have had better information to make decisions. It could also have
                       better assessed WaMu management’s efforts to take appropriate and
                       timely corrective action in response to the repeat deficiencies
                       identified by OTS’s examiners.

                       OTS Did Not Use Its Formal Enforcement Power

                       OTS has a number of informal and formal enforcement tools to carry
                       out its supervisory responsibilities. Generally, OTS policy provides
                       that formal enforcement action should be taken when any institution is
                       in material noncompliance with prior commitments to take corrective
                       actions and for composite 3-rated institutions with weak management,
                       where there is uncertainty as to whether management and the board
                       have the ability or willingness to take appropriate corrective
                       measures. 29

                       We were told that OTS had a general sense of the status of WaMu’s
                       progress in addressing weaknesses, but OTS examiners said that
                       tracking progress was difficult given the size and complexity of WaMu.
                       Further, OTS examiners noted that WaMu would often replace
                       business line managers when significant findings were noted within

29
  OTS Regulatory Bulletin 37-23, July 18, 2008, pages 1 and 2. This bulletin rescinded OTS Regulatory
Bulletin 32-28 dated June 11, 2003.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 30
the manager’s group. WaMu would then ask OTS for time to allow the
newly hired manager to implement plans to address weaknesses.
Given the size of WaMu, the magnitude of the weaknesses identified,
and the limited progress made by WaMu management in correcting
those weaknesses, we believe that OTS should have elevated its
supervisory response sooner, to include formal enforcement action, to
compel WaMu to correct its weaknesses.

OTS Issued Two Informal Enforcement Actions in 2008, but They
Lacked Sufficient Substance to Compel WaMu to Act

OTS asked WaMu to enter into two informal enforcement actions in
2008, a Board Resolution and an MOU. OTS sought the Board
Resolution as a result of the interim downgrade of WaMu from a
composite 2 to a composite 3 on February 27, 2008. The MOU was
put into place as a consequence of OTS’s composite 3 rating at the
end of the OTS examination on June 30, 2008. Neither action was
sufficient to compel WaMu to correct weaknesses.

WaMu’s Regulatory Relations Officer drafted the Board Resolution
and sent it to the OTS West Region Director on March 13, 2008. The
Board Resolution endorsed undertaking strategic initiatives to improve
asset quality, earnings, and liquidity and directed WaMu management
to implement and report on those initiatives. The strategic initiatives
were outlined by WaMu management in a four-page PowerPoint
presentation to the Board that tied improvements to asset quality,
liquidity, and earnings to either (1) the sale of WaMu or (2) raising $3
billion to $4 billion in capital. The initiatives addressed short-term
liquidity issues but did not mention taking action to correct systemic
problems with WaMu that were noted in prior MRBAs or findings
memoranda.

The OTS West Region Director sent the Board Resolution to two
members of OTS’s regional management for their comments. Both
OTS West regional management officials expressed concern with the
Board Resolution because it did not require specific corrective
actions. Further, those officials recognized WaMu’s lack of follow-
through on past promises to engage in corrective action and believed
that OTS needed to take time to review management’s strategic plans
to ensure they addressed the critical weaknesses linked to WaMu’s
composite downgrade. Despite the concerns of these regional
management officials, OTS’s West Region Director approved WaMu’s
version of the Board Resolution, which the Board passed on March
17, 2008.


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 31
In June 2008, the Director of OTS notified WaMu’s chief executive
officer (CEO) that OTS intended to issue an MOU as a result of
WaMu’s composite 3 rating that was to be reported for the
examination ending June 30, 2008. Emails between the OTS West
Region Director and WaMu’s CEO revealed that WaMu management
exerted pressure on the OTS to delay the issuance of the MOU. In
those emails, the CEO continually emphasized WaMu’s commitment
to correct problems, as well as corrective actions already taken in
response to the requirements in the Board Resolution. The OTS West
Region Director noted in a June 2008 email to OTS headquarters
senior management that he had told the WaMu CEO that, as a matter
of policy, OTS believed that 3-rated institutions warranted informal
supervisory action as well as consideration of formal action, in
particular because of repeat examination findings that WaMu had not
corrected.

OTS drafted the MOU and provided a copy to FDIC for comment.
FDIC proposed a number of changes to the MOU, including a
provision that WaMu raise an additional $5 billion in capital. OTS did
not want to include the $5 billion capital increase requirement
because OTS believed that WaMu’s capital was sufficient following a
$2 billion contribution from WaMu’s holding company in July 2008.
Further, OTS was concerned that FDIC model used to determine the
$5 billion amount was premised on faulty assumptions. FDIC and
OTS compromised and included a capital contingency plan
requirement in the MOU rather than a specific amount. OTS sent
WaMu management a copy of the MOU on August 1, 2008, that
required

•   correcting all findings noted in the June 30, 2008, examination by
    the dates specified;
•   submitting a contingency capital plan within 90 days and
    maintaining certain capital ratios;
•   submitting a 3-year Business Plan to OTS’s within 30 days;
•   engaging a consultant to review WaMu’s risk management
    structure, underwriting, management, and board oversight; and
•   certifying compliance with the MOU requirements on a quarterly
    basis.

On August 4, 2008, WaMu reviewed a draft of the MOU and proposed
that the requirement for the consultant review of Board oversight be
removed. OTS accepted WaMu’s change notwithstanding the OTS
examiners’ findings over many years that the Board’s performance


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 32
was weak. By August 25, 2008, WaMu attorneys and OTS had
informally reached agreement on the terms of the MOU and were
waiting for final execution of the MOU. However, it was not until
September 7, 2008 that OTS signed the MOU. A week later, WaMu
was placed into receivership. In the end, the MOU was ineffective
action given its timing.

We believe that OTS should have taken formal enforcement action
against WaMu sooner based on WaMu management’s persistent
delays in correcting weaknesses. We recognize that it is speculative
to conclude that earlier and more forceful enforcement action would
have prevented WaMu’s failure. Nevertheless, by using more forceful
action with WaMu in 2006 or 2007, OTS may have compelled WaMu’s
Board and management to take more aggressive steps to correct
weaknesses and stem the losses that eventually occurred because of
its risky loan products.

Prompt Corrective Action

PCA provides OTS with supervisory remedies aimed to minimize
losses to the DIF. PCA requires that certain operating restrictions take
effect when a savings association’s capital levels fall below
well-capitalized. In the case of WaMu, OTS did not take, and was not
required to take, PCA action because WaMu remained
well-capitalized through September 25, 2008, when it was placed in
receivership. As discussed above, in September 2008, WaMu
depositors withdrew significant funds after the news of other high-
profile financial institution failures and rumors of WaMu’s problems. At
the same time, WaMu was unable to raise capital to keep pace with
depositor withdrawals, prompting OTS to close the institution. That
said, it was only a matter of time before losses associated with
WaMu’s high-risk lending practices would have depleted its capital
below regulatory requirements.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 33
                 SECTION III

FDIC Monitoring of WaMu and
  Insurance Assessments




  Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 34
FDIC Monitoring of WaMu and Insurance Assessments
                         WaMu was one of the eight largest institutions insured by FDIC. FDIC
                         determined that its estimated cost to liquidate WaMu in 2008 would
                         have been approximately $41.5 billion 30 – a sum that would have
                         depleted the entire balance of the DIF at the time. Ultimately, FDIC
                         was able to resolve WaMu with no loss to the DIF.

                         As insurer, FDIC is responsible for monitoring an institution’s risk to
                         the DIF. FDIC had authority to perform its own examination of WaMu
                         and impose enforcement action to protect the DIF, provided statutory
                         and regulatory procedures were followed. Our evaluation found that
                         FDIC followed its internal policies and completed its required
                         monitoring. FDIC monitoring noted an increase in risk at WaMu in late
                         2004 that increased significantly in 2007 and into 2008. Despite those
                         noted risks, WaMu remained in the highest-rated (lowest-risk) deposit
                         insurance risk category from January 2003 until December 2007 and
                         in the second highest-rated deposit insurance category from March to
                         June 2008. FDIC monitoring did not influence WaMu’s deposit
                         insurance risk category because the risk category was based on
                         WaMu’s consistent CAMELS composite 2 rating and WaMu’s
                         regulatory capital level.

                         WaMu was not assessed any deposit insurance premiums from
                         January 2003 to December 2006 because FDIC was prohibited from
                         charging premiums to any institution in the highest-rated insurance
                         risk category during that period. FDIC did not charge premiums during
                         this time period because the DIF had reached a statutory limit that
                         prohibited FDIC from charging institutions in the highest-rated
                         insurance category. From January 2007 to June 2008, WaMu paid
                         $51 million or 24 percent of the $216 million in insurance premiums
                         assessed by FDIC. WaMu was not required to pay 76 percent of the
                         premium assessments because of a one-time credit included in the
                         Federal Deposit Insurance Reform Act of 2005.

                         FDIC has a number of procedural and regulatory tools at its disposal
                         to address a depository institution’s increasing risk. FDIC used its
                         back-up examination authority to bring additional FDIC examiners to
                         WaMu to assess risk but met resistance from OTS. FDIC made use of
                         the tools available to challenge WaMu’s CAMELS composite rating in
                         2008 but again met resistance from OTS. FDIC did not invoke its

30
  FDIC expressed the risk of loss to the DIF as a range from $25.3 billion to $57.8 billion, with a midpoint of
$41.5 billion.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank            Page 35
                        back-up enforcement powers against WaMu because of procedural
                        hurdles required to invoke such action and chose not to make a small
                        adjustment to WaMu’s insurance premium in 3Q 2007.

                        Risks Noted in FDIC Monitoring Reports Were Not Reflected in
                        WaMu’s Deposit Insurance Premium Payments

                        In its capacity as insurer, FDIC monitors and assesses risks at all
                        insured financial institutions and determines each institution’s
                        insurance risk category 31 and premium rate. As shown in Table 11,
                        until January 2007, an institution’s risk category (1A through 3C) was
                        derived from the institution’s CAMELS composite rating and
                        regulatory capital level. FDIC regulations assign each risk category a
                        specific insurance assessment rate (in basis points) that is used to
                        compute an institution’s insurance premium. 32

                        Table 11: Risk-Based Assessment Matrix Effective Until January
                        2007
                                                                  CAMELS Rating
                      Regulatory                A                        B                     C
                       Capital             (CAMELS 1 & 2)            (CAMELS 3)           (CAMELS 4 & 5)
                  1. Well-Capitalized          1A                     1B                          1C
                                             (0 bps)                (3 bps)                    (17 bps)
                  2. Adequately                2A                     2B                          2C
                  Capitalized                (3 bps)               (10 bps)                    (24 bps)
                  3.                           3A                     3B                          3C
                  Undercapitalized          (10 bps)               (24 bps)                    (27 bps)
                           Source: 12 CFR Part 327, Final Rule Supplemental Information

                        FDIC has a number of tools it uses to monitor risk.33 FDIC tracks
                        macro-economic developments in the banking industry to assess
                        broad risks and has special institution-specific programs to monitor
                        large institutions such as WaMu. The FDIC Large Insured Depository
                        Institution (LIDI) program was developed in 1984 to quantify the level
                        and direction of a company’s risk to the DIF. The LIDI program
                        focuses on issues that are broader in nature than those covered by
                        typical safety and soundness examinations. Specifically, the LIDI
                        program looks at an institution’s business profile and considers factors

31
   Prior to January 2007, the term “insurance risk classification” was used instead of “insurance risk
category.” Since both terms refer to the risk rating derived from CAMELS and regulatory capital, we are
using the term “insurance risk category” to avoid confusion between the pre- and post-2007 insurance
periods.
32
   FDIC premiums are calculated by multiplying the assessment rate basis points (bps) by the institution’s
deposit base.
33
   See Appendix 3 for a more detailed explanation of FDIC monitoring tools.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank           Page 36
such as product mix, strategic focus across markets, overall
management expertise, and franchise value. In 2002, FDIC developed
the Dedicated Examiner Program for the eight largest insured
institutions to assign one FDIC examiner full-time to an institution to
devote the examiner’s full attention to assessing the on-going risk
posed by the institution to the DIF. WaMu was part of the LIDI
program and had a dedicated examiner assigned for the entire period
covered by this evaluation from 2003-2008.

FDIC Monitoring Noted an Increase in Risk at WaMu

FDIC completed its required monitoring of WaMu during the entire
period from 2003 to 2008. One of the more significant tasks of the
Dedicated Examiner was to prepare quarterly executive summaries
that assigned a level of risk to WaMu using the LIDI scale from A to E
as shown below.

Table 12: FDIC LIDI Ratings Descriptions
    A        −   Low risk of concern regarding ultimate risk to the
                 insurance funds.
    B        −   Ordinary level of concern regarding ultimate risk
                 to the insurance funds.
    C        −   More than an ordinary level of concern regarding
                 ultimate risk to the insurance funds.

    D        −   High level of concern regarding the ultimate risk
                 to the insurance funds.

     E       − Serious concerns regarding ultimate risk
               to the insurance funds.
Source: FDIC Case Managers Manual

From 2003 to 1Q 2004, FDIC rated WaMu a B on the LIDI scale
meaning FDIC believed WaMu presented an ordinary risk to the DIF.
In 2Q 2004, the LIDI rating for WaMu dropped from B to B/C meaning
that the risk WaMu posed to the fund increased from an ordinary level
to a somewhat more than ordinary level of risk. The quarterly report
indicated concern with WaMu’s projected flat earnings and pressure
to remove $1 billion from its cost structure over the next four quarters.
Further, 2004 was seen as a critical year for WaMu management to
demonstrate it could execute its plans.

FDIC maintained the B/C rating for WaMu through 2Q 2007. Although
the intervening quarterly reports do not adjust the LIDI rating, they
note increased risk associated with WaMu’s pursuit of a high-risk
lending strategy. Specifically, in 2Q 2005, the report states, “[a]sset


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 37
quality is satisfactory …, however, the overall risk profile is higher than
suggested by the balance sheet or traditional performance indicators.
Management’s program to increase subprime, home equity, and
income property loan portfolios combined with a geographic
concentration risk, new product risk, and other factors embedded in
the single-family residential (SFR) loan portfolio aggregate to elevate
the overall risk profile of the loan portfolio … These factors combined
with ongoing underwriting deficiencies suggest that the portfolio may
experience stress during adverse economic periods.” FDIC examiners
told us that the risk was noted, but concern was not elevated because
the loans were performing well during that period. Also, a portion of
the loans were sold in the secondary market and therefore not held on
WaMu’s books. There was concern about what could happen in a few
years, but FDIC examiners said there was no way to predict a
precipitous collapse in the secondary market at that time. Further,
FDIC examiners noted that by that point, WaMu’s management of the
Mortgage Servicing Asset (MSA) had improved, with high-risk lending
taking its place as a concern.

In 2Q 2007, FDIC again dropped WaMu’s LIDI rating from a B/C to a
C, meaning that WaMu posed more than an ordinary risk to the DIF.
The quarterly report notes, “SFR credit risk remains the primary risk.
The bank has geographic concentrations, moderate exposure to
subprime assets and significant exposure to mortgage products with
potential for payment shock. The risk trend is increasing because of
the late stage housing market and the meltdown in the subprime and
private mortgage markets.”

FDIC dropped the WaMu LIDI rating from a C to D in 1Q 2008
indicating FDIC had a high level of concern regarding the ultimate risk
of loss to the DIF. The quarterly report notes significant deterioration
at WaMu, “[a] D rating is now warranted and the outlook is negative
as management has been unable to stem asset quality trends or get a
firm handle on remaining loan losses and the timing of such loan
losses. Management expects losses in residential portfolio to be $12
to $19B. The bank’s culture emphasized home price appreciation and
the ability to perpetually refinance, including the ability to sell
nonperforming assets. The bank’s underwriting standards were
therefore lax as management originated loans under a securitization
model to transfer risk to the market. However, when the market
collapsed in July 2007 for private label and subprime loans, the bank’s
business model failed. The bank is now stuck holding large amounts
of poorly underwritten mortgage loans in a prolonged downturn in the
real estate market.”


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 38
   In 2Q 2008, FDIC ultimately dropped WaMu’s LIDI rating from a D to
   the lowest possible rating of E meaning that FDIC had serious
   concerns regarding WaMu’s ultimate risk to the DIF.

FDIC Monitoring Did Not Impact FDIC’s Rating of WaMu’s Risk to the DIF

In determining an institution’s deposit insurance premium, FDIC first
assigns an institution a risk category. FDIC’s LIDI analysis described
above did not factor into FDIC’s insurance risk category rating of WaMu.
Instead, the deposit insurance regulations require use of an institution’s
composite CAMELS rating and regulatory capital level to assign a deposit
insurance risk category.

Table 13 below shows a comparison of FDIC LIDI rating, CAMELS
composite rating, regulatory capital level, and deposit insurance risk
category for WaMu from January 2003 through June 2008.

   Table 13: WaMu Regulatory Ratings 2003 through 2008
    Insurance            LIDI   CAMELS          Regulatory        Insurance
Assessment Period        Risk  Composite       Capital Level          Risk
                                  Rating                           Category
January 2003            B           2         Well-capitalized         1A
July 2003               B           2         Well-capitalized         1A
January 2004            B           2         Well-capitalized         1A
July 2004              B/C          2         Well-capitalized         1A
January 2005           B/C          2         Well-capitalized         1A
July 2005              B/C          2         Well-capitalized         1A
January 2006           B/C          2         Well-capitalized         1A
July 2006              B/C          2         Well-capitalized         1A
March 2007             B/C          2         Well-capitalized         R-I
June 2007               C           2         Well-capitalized         R-I
September 2007          C           2         Well-capitalized         R-I
December 2007           C           2         Well-capitalized         R-I
March 2008              D           3         Well-capitalized        R-II
June 2008               E           3         Well-capitalized        R-II
    Source: OTS and FDIC examination and insurance pricing information.

From January 2003 through July 2006, WaMu’s insurance risk category
was 1A, meaning WaMu was ranked in the highest-rated of nine possible
deposit insurance risk categories and therefore paid the lowest premium
rate. WaMu maintained that 1A insurance risk rating despite the increase
in LIDI risk shown in January 2005 because WaMu’s CAMELS composite
rating and regulatory capital level were unchanged.




   Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 39
                          In January 2007, FDIC changed the deposit insurance risk categories
                          from nine levels to four levels: R-I to R-IV. From March 2007 to
                          December 2007, WaMu’s insurance risk category was R-I, meaning
                          WaMu was again rated in the highest-rated deposit insurance risk
                          category and therefore paid among the lowest premium rates. WaMu
                          maintained that insurance risk category despite increasing concern
                          noted in the deteriorating LIDI rating because WaMu’s CAMELS
                          composite rating remained a 2 and its regulatory capital level was
                          unchanged.

                          On February 27, 2008, WaMu’s insurance risk category dropped one
                          level to R-II – the second best of four possible insurance risk rankings
                          because WaMu’s CAMELS composite ranking decreased from a 2 to
                          a 3. WaMu maintained the R-II risk rating into June 2008. WaMu’s
                          insurance risk ranking dropped only one level notwithstanding FDIC’s
                          LIDI ranking decreasing to the lowest possible level and indicating
                          serious concern on the part of FDIC as to WaMu’s risk to the fund.

                          FDIC Was Precluded from Charging Premiums for Institutions with 1A
                          Risk Ratings

                          As shown in Table 14, FDIC did not charge WaMu any deposit
                          insurance premiums from 2003 to 2006. In fact, FDIC did not charge
                          deposit insurance premiums for any institution in the 1A insurance
                          category. During this period, the amount of money in the deposit
                          insurance funds (there were two funds at the time) exceeded a
                          statutory ratio requirement to hold $1.25 for every $100 in insured
                          deposits at financial institutions. 34 When that requirement was met,
                          FDIC could not, by statute, set premiums that would increase the
                          statutory ratio except when an institution “exhibited financial,
                          operational, or compliance weakness or is not well-capitalized.” 35 The
                          FDIC Board, by regulation, interpreted the statute to mean that FDIC
                          could not charge premiums for any institutions in the 1A risk category.
                          Therefore, despite WaMu’s size and pursuit of a high-risk strategy,
                          FDIC could not charge WaMu any deposit insurance premiums
                          because WaMu’s composite 2 rating and capital level placed it in the
                          1A risk category.




34
     The ratio is known as the Designated Reserve Ratio.
35
     12 U.S.C. 1817(b)(2)(A)(v).


                          Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 40
   Table 14: WaMu Deposit Insurance Assessments 2003 - 2006
  Assessment Period     LIDI       Insurance             FDIC              WaMu
                        Risk          Risk            Assessments         Payments
 January 2003             B            1A                       $0               $0
 July 2003                B            1A                       $0               $0
 January 2004             B            1A                       $0               $0
 July 2004               B/C           1A                       $0               $0
 January 2005            B/C           1A                       $0               $0
 July 2005               B/C           1A                       $0               $0
 January 2006            B/C           1A                       $0               $0
 July 2006               B/C           1A                       $0               $0
   Source: FDIC Assessment Reports

   WaMu Did Not Pay Its Full Premium for 2007 and 2008 Because of a
   Congressionally-Mandated One-Time Credit

   FDIC regulations in effect beginning in 2007 continued to set
   assessment rates based on an institution’s risk category. One
   difference from the prior assessment regulations was that institutions
   in the R-I risk category could be assessed within a range of rates
   versus a specific assigned rate. Until changes were made in the
   second quarter of 2009, assignment within the R-I rate range for large
   institutions such as WaMu took into account CAMELS ratings and the
   institution’s long-term debt issuer ratings from Moody’s, Fitch, and
   Standard & Poor’s.

Table 15: New Risk Categories Effective January 2007
                                        CAMELS Rating
     Capital Group              A            B        C
                            CAMELS 1 & 2 CAMELS 3 CAMELS 4 & 5
1. Well-Capitalized                R-I
                               5 to 7 bps          R-II          R-III
                                                  10 bps        28 bps
2. Adequately Capitalized

3. Undercapitalized                         R-III 28 bps     R-IV 43 bps
   Source: 2007 deposit insurance regulations.

   As shown in Table 16, FDIC assessed WaMu $215 million in
   insurance premiums from March 2007 through June 2008 based on
   WaMu’s insurance risk category. WaMu paid $51 million or 24 percent
   of those premiums. WaMu payments were less than FDIC premium
   charges because of a one-time credit that Congress included in the
   Federal Deposit Insurance Reform Act of 2005 (Reform Act).




   Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 41
Table 16: WaMu Deposit Insurance Assessments 2007-2008
Assessment Period         LIDI      Insurance        FDIC                WaMu
                                       Risk       Assessments          Payments
March 2007                B/C         R-I           $33,416,173                 $0
June 2007                 C           R-I           $31,461,565                 $0
September 2007            C           R-I           $30,966,418                 $0
December 2007             C           R-I           $28,905,951                 $0
March 2008                D           R-II          $39,178,352         $9,113,681
June 2008                 E           R-II          $51,742,730        $42,205,190
            TOTAL                                  $215,671,191        $51,318,871

Source: FDIC Assessment Reports

According to the Congressional Record, the credit was meant to
reward the institutions that capitalized the deposit insurance funds in
the mid-1990s. The Reform Act did include a limit on, but not an
elimination of, the credit when an institution exhibited certain financial,
operational, or compliance weakness. On May 25, 2007, WaMu
received a $164.4 million credit to be used to offset premiums
beginning in 2007 according to the terms of the Reform Act. WaMu
used the credit to offset the full balance of the insurance assessment
between March 2007 and December 2007. FDIC limited WaMu’s use
of its credit in March 2008 because of WaMu’s composite 3 CAMELS
rating. WaMu used the $9.1 million of its remaining credit in June
2008. Despite the limitations, WaMu was able to use the entire $164.4
million credit to offset premiums.

FDIC Can Take Action When an Institution’s Risk Increases and
FDIC Made Use of Some of Its Available Tools

FDIC has a number of procedural and regulatory tools available to
take action when an institution’s risk increases. In the case of WaMu,
FDIC had the ability to request back-up examination authority to
obtain additional information from WaMu to further understand risk;
challenge OTS’s composite rating of WaMu; encourage OTS to take
enforcement action against WaMu or take independent enforcement
action against WaMu; and, beginning in 2007, make certain small
adjustments to WaMu’s insurance rate.

FDIC Invoked Back-up Examination Authority in Each Year from 2005
to 2008, But Those Requests Met Resistance from OTS

Prior to 2005, FDIC was the primary regulator for a smaller financial
institution held by WaMu’s parent company. Examiners told us FDIC
and OTS had a very good working relationship during this period and



Evaluation of Federal Regulatory Oversight of Washington Mutual Bank         Page 42
                       the OTS routinely used FDIC examiners to assist OTS examiners with
                       their examination. In 2005, the FDIC-supervised institution was
                       merged into WaMu, and FDIC no longer held a primary regulator role.
                       Because FDIC was no longer a primary regulator, FDIC was required
                       to invoke back-up examination authority to bring any examiners, other
                       than the FDIC dedicated examiner, to WaMu.

                       According to the terms of the Coordination of Expanded Supervisory
                       Information Sharing and Special Examinations (January 29, 2002) 36
                       (the interagency agreement) governing information sharing and back-
                       up examinations, FDIC was required to submit a written request to the
                       OTS and show that WaMu posed “heightened risk” to the deposit
                       insurance fund (meaning the institution had a CAMELS composite
                       rating of 3, 4, or 5 or was undercapitalized), or that WaMu exhibited
                       material deteriorating conditions or other adverse developments that
                       may have resulted in the institution being troubled in the near-term.
                       The heightened risk test has clear objective measures, but the test for
                       material deteriorating conditions or adverse developments is
                       subjective. Additionally, even when back-up examination authority is
                       granted, FDIC does not receive direct access to an institution’s data.
                       The principles governing the interagency agreement require that FDIC
                       rely to the fullest extent possible on the primary regulator’s work in
                       order to reduce the burden on the institution. The primary regulator
                       determines whether FDIC’s request meets the requisite level of risk to
                       grant back-up examination authority.

                       FDIC invoked back-up examination authority in each year from 2005
                       to 2008 in order to obtain additional information about the risks in
                       WaMu’s portfolio. Generally, FDIC used back-up examination
                       authority to bring examiners to WaMu to review specific areas of
                       concern such as single family lending and mortgage servicing rights.
                       The OTS granted FDIC’s 2005 back-up examination request but
                       denied FDIC the ability to review the subprime operations of WaMu’s
                       affiliate, LBMC, because LBMC was a subsidiary of WaMu’s parent
                       corporation and not part of WaMu.

                       In 2006, FDIC again requested back-up examination authority, and
                       OTS initially denied the FDIC request. It appears that 2006 was a
                       turning point in the relationship between FDIC and OTS in terms of
                       information sharing that carried through to 2008. The September 1,
                       2006, letter from the OTS Regional Director denying back-up authority

36
  The interagency agreement is based upon 12 U.S.C. § 1820(b)(3) which provides for special examination
authority for any insured depository institution.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 43
indicates that OTS believed that FDIC had not shown the requisite
regulatory need for back-up examination authority according to the
terms of the interagency agreement.

Internal OTS emails indicate that OTS interpreted the interagency
agreement test for a material deteriorating condition or adverse
development as requiring a composite 3 rating for WaMu. Emails
between OTS Washington and OTS West Region state, “The
arrangement we had discussed is that FDIC would work through staff
of the primary supervisor to obtain key information, and that it would
be in rare situations that they would join our examinations as long as
these systemically important institutions remained 1 or 2 rated. This
request sounds like a departure from that arrangement.” The denial
letter states, “[w]e are not aware of any disagreement the FDIC has
with our examination findings or any expressed concerns regarding
our examination activities. Regarding the specific areas of FDIC
interest, the scope of our upcoming examination work includes
reviews of economic capital and higher risk lending and we plan to
share our examination findings with the FDIC as we have in the past.
Based on our agreed upon examination conclusions, the lack of any
known FDIC concerns regarding our past or planned examination
activities, and our continued commitment to share all appropriate
information, the FDIC has not shown the regulatory need to
participate in the upcoming Washington Mutual Examination.”

In response to the denial of back-up examination authority, the FDIC
Regional Director sent a letter to the OTS Regional Director
expressing concern about the denial: “[r]egarding your reasoning for
rejecting our participation in these target reviews, you are correct that
our request is not predicated on any current disagreement related to
examination findings or concern regarding supervisory activities at
Washington Mutual. Such criteria are not prerequisite for requesting –
or for the OTS granting – FDIC staff participation in targeted
examination activities… The 2002 [Information Sharing] Agreement
clearly allows for FDIC staff participation in examination activities to
evaluate risk of a particular banking activity to the DIF. Washington
Mutual is a very large insured financial institution, and in our view
participation on the upcoming targeted reviews is necessary to fulfill
our responsibilities to protect the deposit insurance fund.”

The request was elevated to FDIC and OTS Washington officials, and
about 2 months after the denial letter, OTS decided to grant FDIC
back-up examination authority. The November 10, 2006 letter from
the OTS Regional Director rescinding the denial states, “OTS does


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 44
not seek to have FDIC staff actively participate in our examination
activities and conclusions at Washington Mutual. We do understand
your need for access to examination information and your need to
meet with OTS staff to discuss our supervisory activities at
Washington Mutual. To facilitate this information sharing and
discussions, we have agreed to allow your Dedicated Examiner…to
conduct his FDIC risk assessment activities on site at Washington
Mutual when our examination team is on site. All FDIC requests for
information should continue to be funneled through our examiner-in-
charge…We will consider these limited requests to send additional
FDIC staff to Washington Mutual on a case-by-case basis.”

OTS granted FDIC’s 2007 back-up examination request but did not
allow FDIC examiners access to WaMu residential loan files. Emails
indicate OTS considered loan file review to be an examination activity
rather than an insurance risk assessment activity. FDIC wanted to
review the files because of underwriting concerns and because FDIC
had concerns that OTS examiners had not adequately reviewed the
loan files during the examination to fully understand the embedded
risk. Underwriting was a significant issue because WaMu’s liberal
underwriting standards were a significant contributing factor to
WaMu’s failure.

Finally, in granting FDIC’s 2008 back-up examination request, OTS
was concerned about FDIC’s request for nine examiners, indicating
that it was a heavy staffing request given OTS’s on-site presence and
reiterating that FDIC was not to actively participate in the examination.

The terms of the interagency agreement and the OTS interpretation of
requisite risk necessary to invoke back-up examination authority
served as roadblocks in FDIC’s ability to assess WaMu’s risk. In the
end, the information obtained from invoking back-up examination
authority did not prompt FDIC to challenge OTS’s composite rating of
WaMu until mid-2008.

FDIC Did Not Challenge WaMu’s Composite Rating Until 2008 and
Encountered Resistance from OTS to Downgrade the Rating

FDIC did not challenge the OTS CAMELS composite rating for WaMu
in any year except for the composite 3 rating assigned by OTS in July
2008. FDIC did not challenge those prior ratings despite LIDI ratings
decreases because FDIC believed the CAMELS composite ratings
were appropriate. FDIC’s rationale was that the risks in WaMu’s
portfolio had not manifested themselves as losses and nonperforming


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 45
                         loans, and therefore did not impact WaMu’s financial statements.
                         Further, FDIC examiners explained that no one could have predicted
                         the precipitous fall in home prices and the complete shut-down of the
                         secondary market. In essence, FDIC considered WaMu’s potential
                         risk in the LIDI rating but did not consider that future risk to be
                         significant enough to be reflected in the CAMELS composite rating.

                         FDIC has a protocol in place for interagency CAMELS rating
                         disagreements. The protocol provides a hierarchy where differences
                         are to be resolved beginning at the examiner level and then referred
                         to the next more senior level of each respective agency. 37 If the
                         disagreement reaches the level of the FDIC Associate Director of the
                         Division of Supervision and Consumer Protection (DSC) without a
                         satisfactory resolution, the DSC Director, in consultation with the FDIC
                         Chairman, will make the final decision concerning FDIC’s rating.

                         A May 8, 2008 email provided the first indication that FDIC disagreed
                         with the OTS’s plan to assign WaMu a composite 3 rating at the
                         completion of the OTS examination in July 2008. The primary area of
                         concern was that FDIC believed that WaMu needed an additional $5
                         billion in capital to weather potential portfolio losses. The FDIC capital
                         projection was based upon a capital needs model that FDIC
                         developed at the request of the FDIC Chairman in 2007 after the near
                         collapse of Countrywide. The model was different from traditional
                         FDIC analysis as it focused on forward-looking, long-term capital
                         requirements similar to a private sector purchase analysis.

                         FDIC regional officials followed the disagreement protocol and
                         provided a written memorandum outlining FDIC’s support for a
                         composite 4 rating for WaMu to the OTS Regional Director on August
                         11, 2008. Discussions were held at the regional level on August 28,
                         2008, but regional management for FDIC and OTS continued to
                         disagree on the ratings.

                         On September 8, 2008, the FDIC DSC Director sent an email to the
                         OTS Chief Operating Officer communicating FDIC’s intention to rate
                         WaMu a composite 4, including a copy of FDIC’s rationale for the
                         rating, and requesting a meeting to discuss the issue before
                         September 12, 2008. The OTS Chief Operating Officer responded, “I
                         believe the OTS and FDIC staff has met a number of times to discuss
                         differing views and, until this email and the very recent communication
                         from the FDIC Chairman, was under the impression that this item was

37
     FDIC Case Managers Manual, Section 3.4 (VI).


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 46
                       still under active discussion between our regional staff. Our Regional
                       Director has not received any written communication from his FDIC
                       counterpart that a final rating difference exists between the regional
                       offices. As a consequence, our regional staff has not been afforded
                       the opportunity to counter any FDIC views in a written response. If my
                       understanding is accurate, it seems that we should insist that regional
                       protocol be followed before you and I attempt to reconcile
                       differences.” That same day, the FDIC Regional Director again sent
                       the same information to OTS that was provided on August 11, 2008
                       justifying the ratings downgrade.

                       On September 10, 2008, FDIC decided to speak directly to the newly
                       installed WaMu CEO and notify him that FDIC intended to rate WaMu
                       a composite 4. OTS and FDIC officials subsequently made
                       presentations to the FDIC Board on September 16, 2008 to support
                       their ratings conclusions although the presentations were not a
                       requirement according to the protocol.

                       As the dialogue between OTS and FDIC was ongoing, WaMu
                       continued to have its borrowing capacity limited by the FHLB; raised
                       its certificate of deposit rates higher than competitors to gain
                       depositors; and continued to experience significant deposit
                       withdrawals. FDIC and OTS were monitoring liquidity, but to put things
                       in perspective, the financial market was in turmoil at that time. FDIC
                       and OTS had just closed one of the largest institutions in its history,
                       IndyMac, and OTS examiners told us FDIC expressed concern about
                       the FDIC’s ability to handle a WaMu failure as WaMu’s assets were
                       10 times larger than Indymac’s. During this same period, the Federal
                       Reserve released a statement that the downside risks to growth had
                       increased appreciably; Fannie Mae and Freddie Mac were placed
                       under government conservatorship; and there were rumors of
                       problems with Merrill Lynch and Lehman Brothers.

                       During this time, however, OTS and FDIC had competing interests. As
                       noted by former FDIC Chairman William Isaac, OTS as primary
                       regulator wanted to rehabilitate WaMu and keep it in business while
                       FDIC, on the other hand, as an insurer wanted to resolve the
                       institution’s problems as soon as possible to maintain the value of
                       WaMu in order to reduce the cost of any failure. 38 In the end, both
                       FDIC and OTS agreed to change WaMu’s composite rating to a 4 on
                       September 18, 2008, only 7 days prior to WaMu’s failure. The ratings

38
  Statements from former FDIC Chairman William Isaac, The Wall Street Journal, August 19, 2008
describing the roles of primary regulator and insurer.


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 47
                         change had no impact on WaMu’s deposit insurance premium prior to
                         failure.

                         FDIC Elected Not to Take Enforcement Action Against WaMu in 2008
                         Because of Procedural Hurdles

                         The Federal Deposit Insurance Act allows FDIC to take enforcement
                         action against an institution in the same manner as if FDIC were the
                         primary regulator, provided certain procedural requirements are
                         fulfilled. 39 In the case of an OTS-supervised institution, FDIC must
                         request that OTS take action by providing a formal written
                         recommendation to OTS and allowing OTS 60 days to take action. If
                         such action is not taken, FDIC must petition the FDIC Board to take
                         action. The FDIC Board membership includes the Director of the OTS.
                         FDIC can take action without first requesting OTS action in certain
                         exigent circumstances; however, the FDIC Board must agree to such
                         action. Enforcement actions under this authority generally include
                         formal actions that carry civil money penalties and are enforceable in
                         federal court. FDIC guidance notes that FDIC should take action
                         under that authority when there is an “immediate near-term risk to the
                         fund or unsafe or unsound conditions or practices are noted without
                         appropriate action by the Primary Federal regulator.” 40

                         In July 2008, FDIC believed WaMu could be rated a composite 4 and
                         that WaMu needed $5 billion in capital to withstand potential future
                         losses. At that time, OTS had an MOU underway to address issues at
                         WaMu but did not issue the MOU to WaMu until September 7, 2008.
                         An MOU is an informal agreement that does not fall within FDIC’s
                         formal enforcement action authority noted above. Given OTS’s
                         reluctance to issue the MOU along with the significant risks at WaMu,
                         FDIC could have taken enforcement action to remedy or prevent
                         unsafe or unsound practices. FDIC Washington officials told us they
                         briefly contemplated enforcement action, but given the procedural
                         hurdles involved in invoking such action and the time required to
                         implement an action, it was easier to use moral suasion to attempt to
                         convince OTS to change its rating. According to OTS guidance, there
                         is a strong presumption that institutions with 4 ratings warrant formal
                         enforcement actions; therefore, convincing OTS to rate WaMu a 4
                         would have the same effect.



39
     12 U.S.C. §1818(t).
40
     FDIC Case Manager Manual, Enforcement Actions, page 8-2.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 48
                      FDIC Had an Opportunity to Make a Minor Adjustment to WaMu’s
                      Insurance Premium in 3Q 2007 But Chose Not to Do So

                      The 2007 deposit insurance regulations provide FDIC an opportunity
                      to make small adjustments to insurance premiums for institutions in
                      the R-I category. 41 In simple terms, an adjustment may be warranted
                      when FDIC identifies inconsistencies between an institution’s risk
                      ranking and the ranking of similar institutions. When such
                      inconsistencies are noted, the institution is placed on a priority list and
                      FDIC personnel, in consultation with the primary federal regulator,
                      review the facts and circumstances and determine whether to make
                      an adjustment.

                      WaMu was placed on the priority list in 3Q 2007, but a decision was
                      made by FDIC that WaMu’s insurance premium should not be
                      adjusted. The report noting the decision states, “there is inadequate
                      support for a pricing adjustment at this time. While asset quality and
                      market factors are indicating higher risk levels … most capital and
                      [year-to-date] earnings measures remain in line. Further, recent
                      agency downgrades will raise the assessment rate during the fourth
                      quarter to a level more consistent with the institutions’ [sic] apparent
                      risk profile.” An FDIC official explained that the decision was
                      somewhat procedural in nature. Effectively, because FDIC reviewed
                      the third quarter 2007 assessment in the fourth quarter, FDIC knew
                      the rating agencies had downgraded WaMu and also knew that those
                      downgrades would automatically increase WaMu’s premium. Given
                      that FDIC must provide a one quarter advanced notice of any FDIC
                      ratings adjustment, the FDIC official said there was no point in FDIC
                      making an adjustment when an adjustment would take place
                      automatically because of the rating agency downgrades.




41
     12 C.F.R. 327.


                      Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 49
           SECTION IV
Conclusions and Recommendations




    Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 50
Conclusions and Recommendations
                        OTS – Conclusions

                        The Treasury Office of Inspector General has made a number of
                        recommendations to OTS as a result of completed material loss
                        reviews of failed thrifts during the current economic crisis. These
                        recommendations pertain to taking more timely formal enforcement
                        action when circumstances warrant, ensuring that high CAMELS
                        ratings are properly supported, reminding examiners of the risks
                        associated with rapid growth and high-risk concentrations, ensuring
                        thrifts have sound internal risk management systems, ensuring repeat
                        conditions are reviewed and corrected, and requiring thrifts to hold
                        adequate capital. OTS has taken or plans to take action in response
                        to each of these recommendations. Additionally, OTS has established
                        a large bank unit to oversee regional supervision of institutions over
                        $10 billion. Based on our review of the WaMu failure, we reiterate the
                        importance of the prior recommendations.

                        With respect to coordination with FDIC, current OTS policy states that
                        FDIC will perform all savings association examination activities on a
                        joint basis unless compelling reasons dictate otherwise. For joint
                        examinations, FDIC and OTS are to jointly scope the examination at
                        the EIC level or at the respective regional office level. In this regard,
                        disagreements over scope are to default to the broader alternative. 42
                        While that did not always happen in the case of WaMu, we believe
                        OTS’s underlying policy is not at issue.

                        OTS – Recommendation
                        As a result of this review, we are making one new recommendation to
                        OTS. Specifically, the Director of OTS should:

                            1. Ensure that the OTS internal report of examination system is
                               used to formally track the status of examiner recommendations
                               and related thrift corrective actions.




42
     OTS Examination Handbook, Section 060.


                        Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 51
                         OTS Management Response

                         OTS concurred with our recommendation. In 2007, OTS implemented
                         an internal system to track matters requiring board attention and other
                         matters identified during the examination that require follow-up. OTS
                         stated that, for a variety of reasons, the system was not used for
                         WaMu but is used for all other thrifts and is actively used by OTS staff
                         and monitored by senior management. The OTS response is included
                         in Appendix 6.

                         FDIC – Conclusions

                         WaMu is our second review of FDIC’s monitoring and insurance
                         assessment for large non-FDIC supervised institutions. We issued an
                         evaluation report on FDIC’s monitoring of IndyMac on
                         August 27, 2009. 43 We found that a number of the issues we noted
                         with FDIC’s monitoring and insurance assessments for IndyMac were
                         also present at WaMu.

                         First, the terms of the interagency agreement governing information
                         sharing and back-up examinations require that FDIC prove a requisite
                         level of risk at an institution – heightened risk, material deteriorating
                         conditions, or adverse developments – in order for the primary
                         regulator to grant FDIC access to the institution’s information. The
                         level of risk is largely based on an institution’s CAMELS composite
                         ratings and regulatory capital level.

                         For large institutions such as WaMu that by their sheer size pose a
                         high risk to the DIF, we believe FDIC should not have to prove a
                         particular level of risk to the primary regulator to obtain access to the
                         institution’s information, as the institution’s risk of failure and the
                         resulting potential impact on the DIF should be enough to allow FDIC
                         access to information it needs to assess risk of loss. As shown in this
                         report and our report on IndyMac, OTS’s consistent assignment of a
                         CAMELS composite 2 ratings for those institutions until their near
                         failure shows the unreliability of CAMELS ratings as predictors of risk
                         to the DIF.

                         The interagency agreement was intended to balance the needs of
                         FDIC against the regulatory burden on an institution of having two
                         regulators duplicating examinations. One key principle of the
                         interagency agreement is that FDIC must rely, to the fullest extent

43
     FDIC OIG Report, The FDIC’s Role in the Monitoring of IndyMac Bank, EVAL-09-006, August 2009.


                         Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 52
possible, on the work of the primary regulator. In practical terms, the
interagency agreement appeared to drive a wedge between OTS and
FDIC as attempts by FDIC to review information at WaMu were seen
as an affront to the capabilities of OTS examiners. We believe FDIC
must have sufficient and timely access to information at all large
insured depository institutions (defined by FDIC as having assets of
$10 billion or more) in order to properly assess risk and appropriately
price deposit insurance. We also believe that it may not be in the best
interest of FDIC to place too much reliance on the ability of the
primary regulator to assess risk to the DIF. Ultimately, the DIF, which
is backed by the full faith and credit of the United States, and thus the
American taxpayer, is responsible for absorbing an institution’s failure,
not the primary regulator.

Second, at both IndyMac and WaMu, the CAMELS ratings and capital
levels drove FDIC’s assessment of the institutions’ risk to the DIF and
the institutions’ deposit insurance premium computation despite
indications in the LIDI reports that the risk posed by those institutions
was higher than that indicated by the CAMELS ratings. We believe
there is currently too much reliance on the CAMELS rating for the
purpose of assessing the risk that an institution poses to the DIF. At
both WaMu and IndyMac, FDIC examiners generally agreed with their
OTS counterparts that composite CAMELS 2 ratings were appropriate
despite high levels of risky loan products and inadequate underwriting
practices because those loans were performing and the institutions
were profitable. Such an analysis may be insufficient for assessing
risk for purposes of insuring deposits, as those loans may potentially
cause future losses. FDIC must have significant flexibility to take into
account more than CAMELS ratings and regulatory capital levels to
adequately price an institution’s risk to the DIF.

We note that the FDIC Board took steps, effective April 1, 2009, to
include factors other than CAMELS and regulatory capital in the
computation of an institution’s deposit insurance premium but
maintained the use of CAMELS and regulatory capital to determine an
institution’s deposit insurance risk category. Further, FDIC is
proposing to include risk factors such as incentive compensation
packages to adjust deposit insurance premiums.

On February 26, 2010, the FDIC Chairman announced FDIC’s 2010
Performance Goals (Goals) and a number of the new FDIC initiatives
address the issues found in our evaluation. The Goals include
enhancing FDIC’s oversight of large/complex insured institutions in
order to assess the risk posed by each institution to the DIF by: (1)


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 53
developing memoranda of understanding by April 30, 2010, with each
primary federal regulator for systemically important institutions that
clearly define the roles of FDIC personnel on-site and ensure access
by FDIC employees to all information requests and (2) developing and
implementing by December 31, 2010 a new deposit insurance pricing
system for large banks that better differentiates risks and no longer
relies on external ratings.

FDIC – Recommendations
With this in mind, we make the following recommendation to the FDIC
Chairman in consultation with the FDIC Board of Directors:

1.      Information Access – Revisit the interagency agreement
        governing information access and back-up examination
        authority for large insured depository institutions to ensure it
        provides FDIC with sufficient access to information necessary
        to assess risk to the DIF.

While certain procedures are needed to govern access to an
institution’s information, FDIC must be able to make its own
independent assessment of risk to the DIF without a requirement to
prove a requisite level of risk and without unreasonable reliance on the
work of the primary regulator. Large depository institutions pose
significant risk to the DIF, and FDIC should not be hindered in
obtaining information in order to gauge risk. Although FDIC is taking
steps to clarify information access for the eight (soon to be ten)
systemically important institutions, the interagency agreement needs to
be revised to address all large depository institutions because risky
institutions such as IndyMac were not considered to be one of the eight
systemically important institutions, yet losses to the DIF were
substantial.

2.      Deposit Insurance – Revisit the FDIC Deposit Insurance
        Regulations to ensure those regulations provide FDIC with the
        flexibility needed to make its own independent determination of
        an institution’s risk to the DIF rather than relying too heavily on
        the primary regulator’s assignment of CAMELS ratings and
        capital levels.

The FDIC’s Division of Insurance and Research is uniquely positioned
to evaluate an institution’s risk to the DIF by looking not only at
supervisory information, but also considering other institution-specific
and macro-economic factors in order to determine an institution’s
likely risk to the DIF. Current regulations base an institution’s


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 54
insurance risk category solely on the institution’s CAMELS rating and
capital level, but allow for the consideration of other factors –
unsecured debt, secured liabilities and brokered deposits – in
computing the assessment rate. There are also potential changes to
the regulations that would include incentive compensation as a factor
influencing an institution’s risk to the DIF. Those changes are all
positive steps in considering an institution’s risk. We believe, however,
that the bank failures of 2008 and 2009 show that more factors were
indicative of an institution’s risk to the fund than those currently taken
into consideration. Factors such as an institution’s lending
concentrations, business models, loan types, underwriting, and
enterprise risk management systems were strong indicators of risk.
Those factors are considered in CAMELS ratings, but as shown in
WaMu, IndyMac, and a number of other institutions, CAMELS ratings
did not look at future risk (as would be the case with insurance) but
only measured risk based on the financial performance of the
institution at a point in time. CAMELS ratings in those instances were
favorable until loan losses occurred. Therefore, the risk was factored
into deposit insurance assessments too late to adjust and collect
insurance premiums.

FDIC Management Response

FDIC concurred with both of our recommendations. FDIC is actively
working with other primary regulators to enhance information sharing
including revising the interagency agreement to provide FDIC with
greater access to information about risks at large depository
institutions. FDIC anticipates that agreements can be reached by
December 31, 2010 and in the interim, FDIC is using all available
authority to acquire timely access to information related to risks posed
by financial institutions to the DIF. FDIC is also developing a new
proposed deposit insurance pricing system for large banks that does
not rely on external CAMELS and capital ratings. FDIC anticipates
that this change will be implemented by December 31, 2010. FDIC
response is included in Appendix 6.

OIG Comment

OTS and FDIC planned actions meet the intent of our
recommendations. Both FDIC recommendations will remain open until
the FDIC OIG determines that the agreed-upon corrective actions
have been implemented.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 55
                                   * * * * *


We would like to extend our appreciation to OTS and FDIC for the
cooperation and courtesies extended to our staff during the
evaluation. Major contributors to this report are listed in Appendix 7.


Eric M. Thorson
Inspector General
Department of the Treasury


Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 56
Appendix 1
Objectives, Scope, and Methodology




Objectives
This report presents the results of our review of the failure of
Washington Mutual Bank (WaMu), Seattle, Washington, the Office of
Thrift Supervision’s (OTS) supervision of the institution, and the
Federal Deposit Insurance Corporation’s (FDIC) monitoring and
insurance assessments for WaMu. Our objectives were to:
(1) determine the causes of WaMu’s failure; (2) evaluate OTS’s
supervision of WaMu, including implementation of the Prompt
Corrective Action provisions of Section 38(k), if required; (3) evaluate
FDIC’s monitoring of WaMu in its role as deposit insurer, including the
manner and extent to which FDIC and OTS coordinated supervision of
the institution; and (4) assess FDIC’s resolution process for WaMu to
determine whether those processes complied with applicable laws,
regulations, policies, and procedures. This report covers objectives 1,
2, and 3 above. We intend to report on objective 4, the assessment of
the resolution process, at a later date.

Section 38(k) of the Federal Deposit Insurance Act, requires the
cognizant Inspector General to conduct a material loss review (MLR) of
the causes of the failure and primary federal regulatory supervision
when the failure causes a loss of $25 million to the DIF or 2 percent of
an institution's total assets at the time the FDIC was appointed
receiver. Because FDIC resolved WaMu without incurring a material
loss to the DIF, an MLR is not statutorily required. However, given
WaMu’s size, the circumstances leading up to the FDIC-facilitated
transaction, and non-DIF losses, such as the loss of shareholder value,
the Inspectors General of FDIC and the Department of the Treasury
believed that an evaluation of OTS and FDIC actions was warranted in
that it could provide some important information and observations as
the Administration and the Congress consider regulatory reform.

Scope and Methodology
To accomplish our objectives, we conducted our fieldwork from March
2009 through November 2009 at OTS headquarters in Washington,
DC, and one of its regional offices in Daly City, California, and at FDIC
headquarters in Washington, DC, FDIC regional office in San
Francisco, California, and a field office in Seattle, Washington. We
reviewed supervisory files and interviewed key officials involved in the
regulatory, supervisory, enforcement, and deposit insurance matters.

To assess the adequacy of OTS’s supervision of WaMu, we
determined (1) when OTS first identified safety and soundness


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 57
Appendix 1
Objectives, Scope, and Methodology



problems at the thrift, (2) the gravity of the problems, and (3) OTS’s
supervisory response to get the thrift to correct the problems. We also
determined whether OTS (1) might have discovered problems earlier;
(2) identified and reported all the problems; and (3) issued
comprehensive, timely, and effective enforcement actions that dealt
with any unsafe or unsound activities. Specifically, we did the following:

•   We reviewed OTS supervisory files and records for WaMu from
    2003 through 2008. We analyzed examination reports, supporting
    workpapers, and related supervisory and enforcement
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OTS used to assess the thrift’s condition, and the
    regulatory action used by OTS to compel thrift management to
    address any deficient conditions.

•   We interviewed and discussed various aspects of the supervision of
    WaMu with OTS management officials and examiners to obtain
    their perspective on the thrift’s condition and the scope of the
    examinations. Interviews included discussions with former OTS
    officials.

To assess FDIC’s monitoring and insurance assessments for WaMu,
we determined (1) when FDIC monitoring indicated risk at WaMu, (2)
the nature of the identified risk and whether FDIC-identified risk
corresponded with OTS risk assessments, (3) how FDIC’s risk
monitoring affected WaMu’s deposit insurance premiums, and (4)
whether FDIC used its regulatory tools. We also assessed the
relationship between FDIC and OTS.

•   We reviewed and analyzed FDIC monitoring reports and insurance
    ratings information for 2003 through 2008, including information
    contained in the FDIC’s ViSION system as well as files maintained
    by examiners in the FDIC San Francisco Regional Office and
    Seattle Field Office.

•   We interviewed FDIC regional and Washington officials who
    monitored WaMu for federal deposit insurance purposes.

•   We reviewed and analyzed deposit insurance rules and regulations
    and interviewed DIR personnel responsible for insurance
    assessments.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 58
Appendix 1
Objectives, Scope, and Methodology




•   We reviewed and analyzed OTS and FDIC correspondence in
    order to understand the working relationship between the two
    regulators.

We conducted our evaluation in accordance with the Quality Standards
for Inspections.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 59
Appendix 2
Background




Washington Mutual Bank, History
Washington Mutual Bank (WaMu) was a federally-chartered savings
association established in 1889 and FDIC-insured since
January 1, 1934. WaMu was wholly owned by Washington Mutual Inc.,
(WMI) a non-diversified, multiple savings and loan holding company
that was regulated as a unitary holding company. The chart below
shows the primary WMI subsidiaries.


                               Corporate Structure
                                             Washington
                                             Mutual Inc.
                                               (WMI)




              Washington                      Washington         Merged on
                               Merged on     Mutual Bank,                      Long Beach
              Mutual Bank                                        10/1/2005
                                1/1/2005      FA (WaMu)                         Mortgage
             (Seattle, WA)                                                      Company
              Cert# 9576                    (formerly WMB
                                            of Stockton CA)
                                              Cert# 32633




                              Washington
                              Mutual Bank                        Providian
                             FSB (WMBfsb)                     Financial Corp
                              Cert#33891




WaMu grew rapidly through acquisitions during the period 1991-2006,
acquiring 12 institutions with assets totaling $197.8 billion. At the time
of its failure, WaMu operated 2,300 branches in 15 states, with total
assets of $307 billion.

Operational problems arose from management’s failure to adequately
integrate previous acquisitions, which became an ongoing concern to
regulators and increased WaMu’s risk profile. In 2003, WaMu
announced a major restructuring to reorganize itself around its retail
and commercial customers. This essentially entailed reducing its three
business groups to two, the Consumer Group and the Commercial
Group.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank                        Page 60
Appendix 2
Background



During the second half of 2004, WMI merged its subsidiary,
Washington Mutual Bank, Seattle, into WaMu effective January 1,
2005, consolidating all of WMI’s insured depository institutions under
WaMu. Washington Mutual Bank, Seattle’s primary regulators were the
State of Washington and FDIC, but the merger transferred regulatory
oversight to OTS, thereby eliminating examinations by the State of
Washington and reducing FDIC participation on safety and soundness
exams. During this period, WaMu rapidly expanded its retail franchise
through an aggressive branching strategy, with 200 new branches
added per year between 2003 and 2005.

On June 6, 2005, WaMu altered its organic approach with the
announcement of its planned acquisition of Providian Financial Corp.
The acquisition was consummated during the third quarter of 2005,
and valued at $6.2 billion. The acquisition of Providian on October 1,
2005, created a fourth business line, subprime credit cards. In 2006,
the specialty mortgage finance company, Long Beach Mortgage, was
moved out of WMI and merged within WaMu’s Home Loans Group.

During late 2006 and early 2007, as the credit environment started to
deteriorate, management began tightening credit standards with
respect to credit card and subprime lending. Total assets at year-end
2006 of $345.6 billion were nearly unchanged from $330.7 billion at
year-end 2005. In the first half of 2007, management shrunk the
balance sheet by selling certain lower-yielding loans. Total assets
shrank to $311.1 billion by June 30, 2007. In July 2007, given the
disruption of the secondary mortgage market, management cut back
on loans originated for sale and began transferring held-for-sale loans
to the held-for-investment portfolio. Most of these loans were
transferred at a mark-to-market loss. The lack of loan sale activity
along with the transfer of loans into the held-for-investment portfolio
resulted in total assets increasing to $328.8 billion at September 30,
2007. At December 31, 2007, total assets had decreased slightly to
$325.8 billion.

During the examination which began on September 10, 2007, OTS
downgraded WaMu’s composite rating to “3” based on net losses and
negative asset quality trends. In response to the supervisory ratings
downgrade letter from the OTS Regional Director on February 27,
2008, the Board resolved on March 27, 2008, to undertake strategic
initiatives to improve weaknesses noted in the letter, including
weaknesses related to asset quality, earnings, and liquidity by either
selling WaMu or obtaining additional capital. WMI was able to obtain a
$7 billion capital injection from a private equity group, $5 billion of


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 61
Appendix 2
Background



which was down-streamed to WaMu. However, WaMu’s “3” composite
rating was confirmed at the completion of the OTS examination on
June 30, 2008. OTS entered into MOUs with both WaMu and WMI,
which became effective concurrently with a change in Chief Executive
Officer (CEO) on September 7, 2008.

After September 15, 2008, WaMu experienced deposit withdrawals
exceeding $16 billion, and WaMu’s capacity with the Federal Home
Loan Bank and Federal Reserve Discount Window borrowing lines was
curtailed significantly. WaMu hired Goldman Sachs to conduct
marketing activities on its behalf, but following due diligence, no bids
were received. On September 18, 2008, FDIC and OTS separately
issued WaMu letters downgrading its rating to a composite “4.”

On September 25, 2008, OTS closed WaMu and appointed FDIC as
receiver. WaMu was immediately merged with JPMorgan Chase & Co
and subsequently operated as part of JPMorgan Chase Bank, National
Association in Columbus, Ohio. At the time of closing, WaMu had total
assets of $307 billion, with retail deposits of $134.7 billion.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 62
               Appendix 3
               Supervision and Enforcement




               OTS Supervisory Process for WaMu
               OTS followed a supervisory process at WaMu that included an annual
               risk assessment, supervisory plans, targeted examination work
               programs, detailed findings memoranda issued to WaMu management
               that categorized the severity of issues, and annual ROEs. Table 17
               presents an illustration of OTS’s supervisory process for WaMu.

Table 17: OTS Supervisory Process for WaMu – Key Segments
     Supervisory                                       Description
      Segment
 Risk Assessment     The RASS was used to guide OTS supervision of WaMu for planning,
 and Supervisory     organizing, and directing OTS resources based on a documented, structured
 Strategy (RASS)     risk assessment of the WaMu organization, including the holding company.
                     Major risks assessed were: strategic, reputation, credit, market/interest rate
                     risk, liquidity, operational, and compliance. The RASS was intended to be
                     used by OTS senior staff and managers to quickly understand major risks
                     and issues of significance and supervisory strategies being employed to
                     address the risks and issues. Lead examiners used the RASS for scoping
                     examinations and field visits; examiners used the RASS for updated detail on
                     significant findings and issues.
 Risk Assessment     OTS used the RASP in conjunction with the continuous supervision process
 and Supervisory     implemented for WaMu beginning with the 2007 examination. Similar to the
 Plan (RASP)         RASS, the RASP included a risk assessment and supervisory plans
                     addressing key examination areas by CAMELS components. The RASP was
                     updated annually, by August 31, and was supplemented by quarterly
                     updates, each of which served as an attachment to the Regulatory Profiles.
 Regulatory Profiles OTS prepared quarterly Regulatory Profiles that served as concise, written
                     summaries of WaMu’s characteristics and conditions. Regulatory Profiles
                     reflected data gathered through examinations and off-site monitoring,
                     including: WaMu’s operating profile, identified risks, holding company profile
                     and impact, examination status and ratings support, supervisory strategy,
                     enforcement actions, and significant recent events.
 Work Programs       OTS developed over 60 safety and soundness work programs for the
                     CAMELS areas, each containing procedures to be used in examinations,
                     based upon the savings association’s risk assessments. Examiners used
                     asset quality work programs in the areas of: One- to Four-Family Real Estate
                     Lending, Construction Lending; Other Commercial Lending; Sampling,
                     Consumer Lending; Credit Card Lending, and Adequacy of Valuation
                     Allowances. Examiners used management work programs in the areas of:
                     Oversight by the Board of Directors; Management Assessment, Internal
                     Control; External Audit, Internal Audit; Fraud/Insider Abuse, and Transactions
                     with Affiliates.
 Findings            Examiners prepared formal findings memoranda to document the issues
 Memoranda           identified during the examination. A detailed explanation of the findings
                     memoranda process is provided in the text that follows this table.
Source: OTS Examination Handbook and New Directions Bulletin 06-12, dated September 27, 2006.

               OTS examiners documented the issues they identified in findings
               memoranda, which were presented to WaMu management for


               Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 63
Appendix 3
Supervision and Enforcement



response. The findings memoranda were addressed to WaMu
management responsible for the subject area being reviewed and
included:

    •   background information related to the reviewed area;
    •   examination findings categorized, depending on their level of
        severity, into Criticisms, Recommendations, or Observations;
    •   management’s response -- agreement, partial agreement, or
        disagreement; and
    •   the corrective action proposed by management, including
        specific action steps planned, the assigned responsible
        manager, and target dates for completing the action.

OTS categorized findings memoranda by severity as follows:

Criticism: A primary concern requiring corrective action. Criticisms
were often summarized in the “Matters Requiring Board Attention” or
“Examination Conclusion and Comments” section of the ROE,
warranted increased attention by senior management and the Board,
and required a written response. Criticisms were subject to formal
follow-up by examiners and, if left uncorrected, could result in stronger
action.

Recommendation: A secondary concern requiring corrective action.
A recommendation could become a criticism in future examinations
should risk exposure increase significantly or other circumstances
warrant. Recommendations could be included in the ROE and
mentioned in exit and Board meetings. Examiners could request a
written response from management during the examination. OTS
examiners reviewed management’s actions to address
recommendations at subsequent or follow-up examinations.

Observation: A weakness identified that is not of regulatory concern
but which could improve the bank’s operating effectiveness if
addressed. Observations were made in a consultative role. OTS
presented observations to management either orally or in writing, but
observations were generally not included in the ROE. Examiners rarely
requested a written response during the examination.

Types of Examinations Conducted by OTS
As required by law, OTS conducts full-scope, on-site examinations of
insured depository institutions with assets over $500 million, as in the
case of WaMu, once a year. OTS also conducts limited examinations


Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 64
Appendix 3
Supervision and Enforcement



under certain conditions which focus on high-risk areas. In addition,
OTS conducts information technology examinations to evaluate the
institution’s compliance with applicable rules and policies of OTS.

OTS uses the CAMELS rating system to evaluate a thrift’s overall
condition and performance by assessing six rating components. The
six components are Capital Adequacy, Asset Quality, Management,
Earnings, Liquidity, and Sensitivity to Market Risk. OTS then assigns
each institution a composite rating based on the examiner’s
assessment of its overall condition and level of supervisory concern.
Composite and component ratings are assigned based on a 1 to 5
numerical scale. A 1 indicates the highest rating, strongest
performance and risk management practices, and least degree of
supervisory concern, while a 5 indicates the lowest rating, weakest
performance, inadequate risk management practices, and the highest
degree of supervisory concern. A full-scope examination also looks at
the thrift’s compliance with fair lending, consumer protection, and other
public interest laws and regulations, such as the Bank Secrecy Act.

The examination team prepares a report of examination (ROE)
incorporating program findings and conclusions. OTS regional staff
send the ROE to 1- and 2-rated thrifts within 30 days of the completion
of on-site examination activities, and to 3-, 4-, and 5- rated
associations within 45 days of completion of on-site examination
activities.

OTS provides FDIC information on, and access to, thrifts that
represent a heightened risk to the Deposit Insurance Fund. OTS
presumes heightened risk to a thrift with a composite rating of 3, 4, or 5
or a thrift that is undercapitalized as defined under Prompt Corrective
Action (PCA). FDIC may request participation in examinations when a
thrift exhibits material deteriorating conditions that could result in the
institution becoming troubled in the near future. In this regard, FDIC
may need to develop contingency plans for a thrift’s possible failure or
begin the resolution process.

Enforcement Actions Available to OTS
OTS performs various examinations of thrifts that result in the issuance
of ROEs identifying areas of concern. OTS uses informal and formal
enforcement actions to address violations of laws and regulations and
to address unsafe and unsound practices.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 65
Appendix 3
Supervision and Enforcement



Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to obtain
written commitments from a thrift’s board or management to ensure
that it will correct identified problems and weaknesses, OTS may use
informal enforcement actions. OTS commonly uses informal actions for
problems in

•   well or adequately capitalized thrifts,
•   thrifts with a 3 rating with strong management, and
•   thrifts with a CAMELS composite rating of 1 or 2.

Informal actions notify a thrift’s board and management that OTS has
identified problems that warrant attention. A record of informal action is
beneficial if formal action is necessary later.

If a thrift violates or refuses to comply with an informal action, OTS
cannot enforce compliance in federal court or assess civil money
penalties for noncompliance. However, OTS may initiate more severe
enforcement action against a noncompliant thrift. The effectiveness of
informal action depends in part on the willingness and ability of a thrift
to correct deficiencies that OTS identifies.

Informal enforcement actions include supervisory directives, board
resolutions, and memoranda of understanding.

Formal Enforcement Actions

Formal enforcement actions are enforceable under the Federal Deposit
Insurance Act, as amended. They are appropriate when a thrift has
significant problems, especially when there is a threat of harm to the
thrift, depositors, or the public. OTS is to use formal enforcement
actions when informal actions are considered inadequate, ineffective,
or otherwise unlikely to secure correction of safety and soundness or
compliance problems.

OTS can assess civil money penalties against thrifts and individuals for
noncompliance with a formal agreement or final orders. OTS can also
request a federal court to require the thrift to comply with an order.
Unlike informal actions, formal enforcement actions are public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and Prompt Corrective Action directives.



Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 66
Appendix 3
Supervision and Enforcement



OTS Enforcement Guidelines

Considerations for determining whether to use informal action or formal
action include the following:

•   the extent of actual or potential damage, harm, or loss to the thrift
    because of the action or inaction;
•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;
•   the likelihood that the conduct may occur again;
•   the thrift’s record for taking corrective action in the past;
•   the capability, cooperation, integrity, and commitment of the thrift’s
    management, board, and ownership to correct identified problems;
•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;
•   the examination rating of the thrift;
•   whether the thrift’s condition is improving or deteriorating;
•   the presence of unique circumstances;
•   the extent to which the thrift’s actions were preventable; and
•   the supervisory goal OTS wants to achieve.

Types of Monitoring Conducted by FDIC

FDIC is responsible for insuring depository institutions in the United
States. In its capacity as insurer, FDIC is responsible for regularly
monitoring and assessing the potential risks at all insured institutions,
including those for which it is not the primary federal regulator (PFR).
To assess and monitor risk, FDIC takes a two-fold approach: (1)
research and analysis of trends and developments affecting the health
of banks and thrifts broadly and (2) reliance on the PFR supervisory
activities of individual institutions. To assess risk at a broader level,
FDIC conducts a wide range of activities to monitor and assess risk
from a regional and national perspective. At the institutional level, FDIC
monitors large non-FDIC supervised institutions primarily through its
Dedicated Examiner and Case Manager Programs. FDIC relies on the
PFR’s examinations to determine a bank’s overall condition and the
risks posed to the Deposit Insurance Fund. Additionally, FDIC, by
statute, has special examination authority and certain enforcement
authority for all insured depository institutions for which it is not the
PFR.




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 67
Appendix 3
Supervision and Enforcement



Broad Risk Monitoring Activities

FDIC’s Division of Supervision and Consumer Protection (DSC) and
Division of Insurance and Research (DIR), along with FDIC regional
and national risk committees, are responsible for conducting broad
monitoring activities designed to identify industry-wide risks and
develop corresponding supervisory strategies.

DSC’s Complex Financial Institution Program supports supervisory
activities in large banks (defined to be institutions with total assets of at
least $10 billion). The focus of the program is to ensure a consistent
approach to large-bank supervision and risk analysis on a national
basis. The Large Bank Section synthesizes information from Large
Insured Depository Institution (LIDI) reports, aggregates data on large
banks to identify trends and emerging risks, and communicates these
trends and emerging risks to FDIC senior management, the FDIC
Board of Directors, other regulators, and DSC staff.

DIR assesses risks to the insurance fund, manages the FDIC’s Risk-
Related Premium System (RRPS), conducts banking research,
publishes banking data and statistics, and analyzes policy alternatives.
DIR has a leading role in preparing the semiannual “Risk Case”, which
summarizes national economic conditions, banking industry trends,
and emerging risks, and “Rate Case” that recommends the deposit
insurance premium schedule based on analysis, including likely losses
to the fund from failures of individual institutions and other factors.

FDIC regional and national risk committees review and evaluate
regional economic and banking trends and risks and determine
whether any actions need to be taken in response to those trends and
risks. The regional risk committees prepare semiannual reports
highlighting emerging and increasing risk areas. For example, during
our period of review, the San Francisco Regional Risk Committee and
the National Risk Committee reported concerns with respect to
subprime and non-traditional lending.

FDIC Risk Monitoring Activities from an Individual Institution
Perspective

FDIC assigns responsibility for a caseload of institutions to a case
manager. The case manager monitors potential risks by reviewing
examination reports prepared by the PFR, analyzing data from




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 68
                          Appendix 3
                          Supervision and Enforcement



                          quarterly institution Call Reports, 44 and analyzing other financial and
                          economic data from government and private sources to monitor the
                          financial condition of an institution. The emphasis of the program is to
                          ensure that the level of regulatory oversight accorded to an institution
                          is commensurate with the level of risk it poses to the Deposit Insurance
                          Fund.

                          FDIC assigns a dedicated examiner to the largest insured financial
                          institutions. The dedicated examiner serves as the case manager for
                          these institutions and works in cooperation with primary supervisors
                          and bank personnel to obtain real-time access to information about an
                          institution’s risk and trends.

                          The dedicated examiner/case manager conducts comprehensive
                          quarterly analyses of the risk profile and supervisory strategies as part
                          of the LIDI program. The purpose of the LIDI program is to provide
                          timely, comprehensive, and forward-looking analyses of companies
                          with total assets of $10 billion or more, on a consolidated entity
                          basis. 45 Timely and complete analysis of the risk profiles of these
                          companies provides a proactive approach aimed at identifying and
                          monitoring the largest risks to the insurance fund. Dedicated
                          examiners/case managers prepare written reports that document the
                          analysis and risk profile and supervisory strategies of large depository
                          institutions. The analysis is comprised of four major areas:

                          •    organizational structure and strategic focus of the company;
                          •    overall risk profile and financial condition of the company;
                          •    an identification and review of significant issues, current events,
                               and challenges facing the company; and
                          •    the review and development of a sufficient supervisory program to
                               address the risk issues facing the company.

                          FDIC developed the LIDI reports and associated rankings as an
                          additional means to measure an institution’s financial health beyond
                          the CAMELS ratings. LIDI reports are used to inform FDIC senior
                          management, the FDIC’s Board of Directors, and other regulators
                          about risks to the insurance fund as well as provide updates about the
                          supervisory programs in place to respond to those risks.


44
   All regulated financial institutions are required to file quarterly financial information. For banks, this report is
formally known as the Report of Condition and Income but is generally referred to as the Call Report. Thrifts
file a similar report known as the Thrift Financial Report or TFR.
45
   Companies with consolidated total assets of at least $3 billion but less than $10 billion can be added to the
LIDI Program at the discretion of the Regional Director.


                          Evaluation of Federal Regulatory Oversight of Washington Mutual Bank                 Page 69
                       Appendix 3
                       Supervision and Enforcement



                       FDIC also has a number of offsite monitoring systems that generate
                       financial ratios based on Call Report data. Dedicated examiners/case
                       managers must perform an offsite review of situations where a bank’s
                       financial ratios fall outside of FDIC-determined tolerances. Dedicated
                       examiners/case managers must also review the Risk Related Premium
                       System (RRPS). The RRPS is used to determine an institution’s FDIC
                       deposit insurance assessment rate. FDIC has an RRPS Reconciliation
                       List that identifies institutions where the CAMELS ratings are
                       inconsistent with offsite ratios and institutions with atypical high-risk
                       profiles among the group of institutions in the best-rated insurance
                       premium category. If the Reconciliation List is triggered, a case
                       manager must review the appropriateness of the risk category
                       assigned by the RRPS. 46 During the period covered by our review,
                       WaMu’s financial ratios did not trigger any offsite reviews or RRPS
                       reconciliation reviews.

                       FDIC Special (Back-up) Examination Authority
                       Section 10(b)(3) of the Federal Deposit Insurance Act provides FDIC
                       special examination authority (also known as back-up authority) to
                       make any special examination of any insured depository whenever the
                       FDIC Board of Directors determines a special examination of any such
                       depository institution is necessary to determine the condition of the
                       institution for insurance purposes. In January 2002, the FDIC’s Board
                       of Directors approved an interagency agreement that established a set
                       of principles related to use of special examination authority for those
                       institutions that present “heightened risk” to the Deposit Insurance
                       Fund and delegated its authority to DSC. 47 The term “heightened risk”
                       is defined under statute as an institution having a composite rating of
                       3, 4, or 5 or that is undercapitalized as defined under Prompt
                       Corrective Action rules. 48 Further, FDIC may request permission from
                       the PFR to participate in an examination for an institution that does not
                       meet the heightened risk definition but exhibits material deteriorating
                       conditions or other adverse developments that may result in the
                       institution being troubled in the near-term.

                       Procedurally, a case manager prepares a memorandum documenting
                       the basis for a back-up examination request and submits the request to

46
   The Reconciliation List was a semiannual review until June 6, 2007, at which time it became a quarterly
review.
47
   January 29, 2002 Interagency Agreement, “Coordination of Expanded Supervisory Information Sharing and
Special Examinations”.
48
   12 U.S.C. §1820(b)(3).


                       Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 70
                           Appendix 3
                           Supervision and Enforcement



                           the FDIC Regional Director or Deputy Regional Director who may
                           accept or reject the request. If the request is based on heightened risk,
                           the Regional Director formally notifies the PFR counterpart by sending
                           a letter stating FDIC would like to participate in the examination. If the
                           request is not based on heightened risk, the process is more in the
                           manner of a request where the FDIC Regional Director asks the PFR
                           counterpart whether the PFR would object to FDIC’s participation.
                           Implicit in both of these requests is the principle of effective and
                           efficient supervision.

                           In the event that FDIC and the PFR disagree as to the appropriateness
                           of FDIC’s participation, the respective agency supervision
                           representatives determine whether FDIC participation is appropriate. In
                           the event the agency representatives cannot agree, the FDIC
                           Chairman and the principal of the PFR will make the determination.

                           FDIC Back-up Enforcement Authority
                           FDIC is authorized under Section 8(t) of the Federal Deposit Insurance
                           Act to engage in back-up enforcement action. 49 In this capacity,
                           FDIC generally has the same powers with respect to any insured
                           depository institution and its affiliates as the primary federal banking
                           agency has with respect to the institution and its affiliates. FDIC may
                           recommend in writing that an institution's PFR take a range
                           of enforcement actions authorized under the Federal Deposit
                           Insurance Act with respect to any insured depository institution or any
                           institution-affiliated party, based on an examination by FDIC or the
                           PFR. The recommendation must be accompanied by a written
                           explanation of the concerns giving rise to the recommendation. If,
                           within 60 days of such recommendation, the institution's PFR does not
                           take the enforcement action recommended by FDIC or provide an
                           acceptable plan for responding to the concerns, FDIC may petition the
                           FDIC Board of Directors for such enforcement action to be taken. Only
                           after Board approval may FDIC take action in its capacity as insurer.
                           However, the composition of the FDIC Board, which includes the
                           Director of OTS and the Comptroller of the Currency, essentially puts
                           the enforcement decision back into the hands of the PFR that was
                           reluctant to take action in the first place. The statute provides for a
                           similar exercise of FDIC's authority in exigent circumstances without
                           regard to the 60-day time period; however, such circumstances also
                           require approval of the FDIC Board of Directors prior to any action
                           being taken.

49
     12 U.S.C. §1818(t).


                           Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 71
                     Appendix 3
                     Supervision and Enforcement




                     FDIC Deposit Insurance Assessments
                     Prior to the passage of the Federal Deposit Insurance Reform Act of
                     2005 and the Federal Deposit Insurance Reform Act Conforming
                     Amendments of 2005 (collectively referred to as the Reform Act), FDIC
                     was statutorily required to set assessments semiannually. Specifically,
                     the FDIC Improvement Act of 1991 (FDICIA) required that FDIC
                     establish a risk-based assessment system. To implement that
                     requirement, FDIC adopted by regulation a system that placed
                     institutions into risk categories based on two criteria: (1) capital levels
                     and (2) supervisory ratings, as illustrated in Table 18. In practice, the
                     subgroup evaluations were generally based on an institution’s
                     composite CAMELS rating. Generally, institutions with a CAMELS
                     rating of 1 or 2 were put into supervisory subgroup A. Supervisory
                     subgroup B generally included institutions with a CAMELS composite
                     rating of 3; and supervisory subgroup C generally included institutions
                     with CAMELS composite ratings of 4 or 5.

           Table 18: Risk-Based Assessment Matrix Effective Until January 2007
                                       Supervisory Group
   Capital Group             A                  B                     C
1. Well-Capitalized                 1A                      1B                              1C
2. Adequately                       2A                      2B                              2C
Capitalized
3. Undercapitalized                 3A                      3B                              3C
              Source: 12 CFR Part 327, Final Rule Supplemental Information.

                     A risk-based system is defined as one based on an institution’s
                     probability of causing a loss to the Deposit Insurance Fund due to the
                     composition and concentration of the institution’s assets and liabilities,
                     the amount of loss given failure, and the revenue needs of the fund.
                     Provisions in the Reform Act continued to require that the assessment
                     system be risk-based but allowed FDIC to define risk broadly. Under
                     the rule adopted by FDIC to implement the Reform Act, deposit
                     insurance assessments are collected after each quarter ends—which
                     was intended to allow for consideration of more current information
                     than under the prior rule. Effective January 1, 2007, the nine risk
                     classifications in the risk-based assessment matrix were consolidated
                     into four risk categories. However, the implementing regulation
                     continued to use capital ratios and supervisory ratings to determine an
                     institution’s risk category. Table 19 shows the relationship between the
                     old nine-cell matrix and the new risk categories.




                     Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 72
          Appendix 3
          Supervision and Enforcement



  Table 19: New Risk Categories Effective January 2007
                                         Supervisory Group
   Capital Group            A                   B                                       C
1. Well-Capitalized                  I
2. Adequately                                        II                                III
Capitalized
3. Undercapitalized                                  III                               IV
   Source: FDIC’s Website – Deposit Insurance Assessments – Key Provisions Pertaining to
   Risk-based Assessments.

          The amount each institution is assessed is based upon factors that
          include the amount of the institution’s domestic deposits as well as the
          degree of risk the institution poses to the insurance fund. For large
          institutions (generally those institutions with $10 billion or more in
          assets) that have long-term debt issuer ratings, base assessment rates
          are determined from weighted average CAMELS component ratings
          and long-term debt issuer ratings. For larger Risk Category I
          institutions, additional risk factors will be considered to determine if the
          assessment rates should be adjusted up to a ½ basis point higher or
          lower. This additional information includes market data, financial
          performance measures, considerations of the ability to withstand
          financial stress, and loss severity indicators.




          Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 73
                      Appendix 4
                      Glossary




CAMELS                                An acronym for the performance rating components:
                                      Capital adequacy, Asset quality, Management practices,
                                      Earnings performance, Liquidity position, and Sensitivity
                                      to market risk. Numerical values range from 1 to 5, with 1
                                      being the highest rating and 5 representing the worst-
                                      rated banks.

Concentration                         As defined by OTS, a group of similar types of assets or
                                      liabilities that, when aggregated, exceed 25 percent of a
                                      thrift’s core capital plus allowance for loan and lease
                                      losses. Concentrations may include direct, indirect, and
                                      contingent obligations or large purchases of loans from a
                                      single counterparty. Some higher-risk asset or liability
                                      types (e.g., residual assets) may warrant monitoring as
                                      concentrations even if they do not exceed 25 percent of
                                      core capital plus allowance for loan lease losses.

FICO scores                           Credit scores provided to lenders by credit reporting
                                      agencies to reflect information that each credit bureau
                                      keeps on file about the borrower and that are produced
                                      from software developed by Fair Isaac and Company.
                                      The credit scores take into consideration borrower
                                      information such as (1) timeliness of payments; (2) the
                                      length of time credit has been established; (3) the
                                      amount of credit used versus the amount of credit
                                      available; (4) the length of time at present residence; and
                                      (5) negative credit information such as bankruptcies,
                                      charge-offs, and collections. The higher the credit score
                                      is, the lower the risk to the lender.

Generally accepted                   A widely accepted set of rules, conventions,
accounting principles                standards, and procedures for reporting financial
                                     information, as established by the Financial Accounting
                                     Standards Board.

Loan-to-value ratio                   A ratio for a single loan and property calculated by
                                      dividing the total loan amount at origination by the market
                                      value of the property securing the credit, plus any readily
                                      marketable collateral or other acceptable collateral. In
                                      accordance with Interagency Guidelines for Real Estate
                                      Lending Policies (appendix to 12 C.F.R. § 560.101),
                                      institutions’ internal loan-to-value limits should not
                                      exceed (1) 65 percent for raw land; (2) 75 percent for


                      Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 74
                    Appendix 4
                    Glossary



                                    land development; and (3) 80 percent for commercial,
                                    multifamily, and other nonresidential loans. The
                                    guidelines do not specify a limit for owner-occupied one-
                                    to four-family properties and home equity loans.
                                    However, when the loan-to-value ratio on such a loan
                                    equals or exceeds 90 percent at the time of origination,
                                    the guidelines state that the thrift should require
                                    mortgage insurance or readily marketable collateral.

Matter requiring                    A thrift practice noted during an OTS examination
board attention                     that deviates from sound governance, internal control,
                                    and risk management principles, and which may
                                    adversely impact the bank’s earnings or capital, risk
                                    profile, or reputation, if not addressed; or result in
                                    substantive noncompliance with laws and regulations,
                                    internal policies or processes, OTS supervisory
                                    guidance, or conditions imposed in writing in connection
                                    with the approval of any application or other request by
                                    the institution. A matter requiring board attention (MRBA)
                                    is not a formal enforcement action. Nevertheless, OTS
                                    requires that thrifts address the matter, and failure to do
                                    so may result in a formal enforcement action.

Mortgage banking                    The term refers to the origination, sale, and servicing of
                                    mortgages. A mortgage banker takes an application from
                                    the borrower and issues a loan to the borrower. The
                                    mortgage banker then sells the loan to an investor and
                                    may retain or sell the servicing of the loan that includes
                                    collecting monthly payments, forwarding the proceeds to
                                    the investor who purchased the loan, and acting as the
                                    investor's representative for other issues and problems
                                    with the loan.

Nontraditional mortgages            Mortgages that include "interest-only" and "payment
                                    option" adjustable-rates. These products allow borrowers
                                    to exchange lower payments during an initial period for
                                    higher payments during a later amortization period.

Pipeline                            Loans inventoried in an institution’s held-for-sale portfolio
                                    to be sold to investors.

Prompt corrective action            A framework of supervisory actions, set forth in 12 U.S.C.
                                    § 1831o, for insured depository institutions that are not
                                    adequately capitalized. It was intended to ensure that


                    Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 75
                      Appendix 4
                      Glossary



                                       action is taken when an institution becomes financially
                                       troubled in order to prevent a failure or minimize resulting
                                       losses. These actions become increasingly severe as a
                                       thrift falls into lower capital categories. The capital
                                       categories are well-capitalized, adequately capitalized,
                                       undercapitalized, significantly undercapitalized, and
                                       critically undercapitalized. The prompt corrective action
                                       minimum requirements are as follows:

                                            Total               Tier 1/               Tier 1/
                      Capital Category      Risk-Based          Risk-Based            Leverage
                                            10% or       and 6% or            and 5% or greater
                      Well-capitalizeda     greater             greater
                      Adequately            8% or        and 4% or            and 4% or greater
                      Capitalized           greater             greater               (3% for 1-rated)
                                            Less         or     Less          or      Less than 4% (except
                      Undercapitalized      than 8%             than 4%               for 1-rated)
                      Significantly         Less         or     Less          or      Less than 3%
                      Undercapitalized      than 6%             than 3%
                                            Has a ratio of tangible equity to total assets that is equal to or
                      Critically            less than 2 percent. Tangible equity is defined in 12 C.F.R. §
                      Undercapitalized      565.2(f).
                      aTo be well-capitalized, a thrift also cannot be subject to a higher capital
                      requirement imposed by OTS.



Risk-based capital                     A thrift’s risk-based capital is the sum of its Tier 1 capital
                                       plus Tier 2 capital (to the extent that Tier 2 capital does
                                       not exceed 100 percent of Tier 1 capital). This amount is
                                       then reduced by (1) reciprocal holdings of the capital
                                       instruments of another depository institution, (2) equity
                                       investments, and (3) low-level recourse exposures and
                                       residual interests that the thrift chooses to deduct using
                                       the simplified/direct deduction method, excluding the
                                       credit-enhancing interest-only strips already deducted
                                       from Tier 1 capital.

Risk-weighted asset                    An asset rated by risk to establish the minimum amount
                                       of capital that is required within institutions. To weight
                                       assets by risk, an institution must assess the risk
                                       associated with the loans in its portfolio. Institutions
                                       whose portfolios hold more risk require more capital.

Secondary market                       Financial market where previously issued securities
                                       (such as bonds, notes, shares) and financial instruments


                      Evaluation of Federal Regulatory Oversight of Washington Mutual Bank              Page 76
                     Appendix 4
                     Glossary



                                     (such as bills of exchange and certificates of deposit) are
                                     bought and sold. All commodity and stock exchanges,
                                     and over-the-counter markets, serve as secondary
                                     markets which (by providing an avenue for resale) help in
                                     reducing the risk of investment and in maintaining
                                     liquidity in the financial system.

Stated income                        A stated income mortgage loan is a specialized mortgage
                                     loan where the mortgage lender verifies employment and
                                     assets, but not income. Instead, an income is simply
                                     stated on the loan application (the stated income on the
                                     application has to be realistic for the employment type).

Thrift Financial Report              A financial report that thrifts are required to file quarterly
                                     with OTS. The report includes detailed information about
                                     the institution's operations and financial condition, and
                                     must be prepared in accordance with generally accepted
                                     accounting principles. The thrift financial report for thrifts
                                     is similar to the call report required of commercial banks.




                     Evaluation of Federal Regulatory Oversight of Washington Mutual Bank    Page 77
                     Appendix 5
                     OTS WaMu Examinations and Enforcement Actions



This appendix lists OTS safety and soundness examinations of WaMu from 2003 until the
thrift’s failure in September 2008 and provides information on the significant results of those
examinations. Generally, MRBAs represent the most significant items requiring corrective
action found by the examiners.


 Date          CAMELS          Total      Significant safety and soundness              Enforcement
 Exam          Rating         Assets      matters requiring board attention             Action
 Started                    ($billions)   and corrective actions cited in
                                          reports of examination
 3-17-03        2/222223    $243          Matters requiring board attention             None
                                          Sensitivity to Market Risk: Ensure that
                                          management fulfills the commitments
                                          made in the bank’s responses to the
                                          various findings memos issued during
                                          the examination. Particular attention is
                                          directed to upgrading risk management
                                          practices associated with mortgage
                                          banking activities. Also important is the
                                          Board’s commitment to building the
                                          enterprise-wide risk management
                                          function, with an emphasis on corporate
                                          market risk management.

                                          Corrective actions
                                          Capital Adequacy: Implement
                                          appropriate corrective action, as agreed
                                          to by management, in the responses to
                                          the various findings memos issued
                                          during the examination.
                                          Asset Quality: Implement appropriate
                                          corrective action, as agreed to by
                                          management, in the responses to the
                                          various findings memos issued during
                                          the examination.
                                          Management: Monitor implementation
                                          of corrective actions initiated in response
                                          to the various findings memos issued
                                          during the examination.
                                          Earnings: Implement appropriate
                                          corrective action, as agreed to by
                                          management, in the responses to the
                                          various findings memos issued during
                                          the examination.
                                          Liquidity: Implement recommendations
                                          in Joint Memo 16, as agreed.
                                          Sensitivity to Market Risk: Implement
                                          appropriate corrective action, as agreed
                                          to by management, in the responses to
                                          the various findings memos issued
                                          during the examination.



                     Evaluation of Federal Regulatory Oversight of Washington Mutual Bank       Page 78
                Appendix 5
                OTS WaMu Examinations and Enforcement Actions



Date        CAMELS        Total      Significant safety and soundness             Enforcement
Exam        Rating       Assets      matters requiring board attention            Action
Started                ($billions)   and corrective actions cited in
                                     reports of examination
  3-15-04   2/222223      $248       Matters requiring board attention            None
                                     Asset Quality – Single Family
                                     Residential Underwriting: Ensure that
                                     management follows through with plans
                                     to improve single family underwriting
                                     practices and gauge the effectiveness of
                                     these plans through close monitoring by
                                     Finance Committee of independent
                                     reviews performed by ERM units.
                                     Asset Quality – Subprime Borrowers:
                                     Review and diligently question
                                     management’s definitions of high-
                                     risk/subprime borrowers and
                                     recommended portfolio concentration
                                     limits for loans to such borrowers;
                                     identify plans to track the performance of
                                     such loans; and approve a prudent
                                     subprime lending strategy.
                                     Asset Quality – Single Family Loan
                                     Channel Profitability: Require
                                     management to provide information on
                                     single family loan channel profitability,
                                     particularly the correspondent channel,
                                     and require thorough explanation for any
                                     strategy that does not provide an
                                     acceptable risk-adjusted return.
                                     Asset Quality – ERM: Obtain updates
                                     from management on the progress in
                                     consolidating Residential Quality
                                     Assurance (RQA), Optimum Support,
                                     Servicing Quality Assurance,
                                     Compliance Review, and other review
                                     functions within ERM. Finance
                                     Committee should ensure that
                                     management maintains integrity of RQA
                                     and Compliance Review activities during
                                     and after consolidation and provide
                                     support to RQA in terms of making sure
                                     it obtains timely and appropriate
                                     responses to findings from line
                                     management.
                                     Asset Quality/Sensitivity – Data
                                     Management: Monitor management’s
                                     progress in improving the management
                                     and accuracy of pipeline and warehouse
                                     data, including plans to reduce the
                                     manual control process.
                                     Sensitivity – Mortgage Servicing



                Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 79
             Appendix 5
             OTS WaMu Examinations and Enforcement Actions



Date      CAMELS       Total      Significant safety and soundness              Enforcement
Exam      Rating      Assets      matters requiring board attention             Action
Started             ($billions)   and corrective actions cited in
                                  reports of examination
                                  Rights (MSR): Continue to focus
                                  attention on understanding the behavior
                                  of the bank’s MSR, particularly in terms
                                  of hedge performance. Require
                                  management to either reduce
                                  concentration risk or enhance MSR risk
                                  management capabilities to reduce
                                  volatility, including risk limit setting
                                  process.
                                  Sensitivity – Net Income Scenario
                                  Analysis: Discuss expectations with
                                  management for net income scenario
                                  analysis that should be presented to the
                                  Board on a regular basis. Ensure
                                  management expands the range of
                                  interest rate environments for
                                  presentation of net income, net interest
                                  income, and net portfolio value
                                  sensitivity information to the Board.
                                  Monitor management’s progress in
                                  completing the development of
                                  prepayment models.
                                  Management – ERM: Monitor and
                                  obtain reports from management on
                                  status of ERM function in terms of
                                  effectiveness and resource adequacy.
                                  Management – Cost-Cutting
                                  Measures: Ensure cost-cutting
                                  measures are not impacting critical risk
                                  management areas.
                                  Management – Organizational
                                  Changes: Closely monitor impact of
                                  organizational changes, particularly in
                                  terms of making sure adequate,
                                  committed resources support an
                                  experienced management team.

                                  Corrective actions
                                  Capital Adequacy: None.
                                  Asset Quality: Implement appropriate
                                  corrective actions as agreed to in
                                  management’s responses to the various
                                  findings memos issued during the
                                  examination.
                                  Management: Implement the required
                                  actions set forth in the MRBAs section of
                                  the report and monitor implementation of
                                  corrective actions initiated in response to



             Evaluation of Federal Regulatory Oversight of Washington Mutual Bank       Page 80
                Appendix 5
                OTS WaMu Examinations and Enforcement Actions



Date        CAMELS        Total      Significant safety and soundness                Enforcement
Exam        Rating       Assets      matters requiring board attention               Action
Started                ($billions)   and corrective actions cited in
                                     reports of examination
                                     the various findings memos issued
                                     during the examination.
                                     Earnings: None.
                                     Liquidity: Implement recommendations
                                     in Joint Memo #1, as agreed.
                                     Sensitivity to Market Risk: Implement
                                     appropriate corrective actions as agreed
                                     to by management in the responses to
                                     the various findings memos issued
                                     during the examination.
  3-14-05   2/222222      $306       Matters requiring board attention               None
                                     Asset Quality – SFR Underwriting:
                                     Ensure that management follows
                                     through with plans to improve SFR
                                     underwriting and appraisal practices and
                                     gauge the effectiveness of these plans
                                     through close monitoring of independent
                                     reviews performed by ERM units.
                                     Asset Quality – Credit Risk Oversight
                                     (CRO): Ensure that the Board is
                                     receiving and reviewing appropriate
                                     reports from CRO summarizing loan
                                     review activities and trends. Ensure that
                                     CRO is appropriately developing and
                                     executing an adequate Performance
                                     Plan. Support CRO in obtaining timely
                                     and appropriate responses to findings
                                     from line management.
                                     Management – ERM: Monitor and
                                     obtain reports from management on
                                     status of ERM in terms of effectiveness
                                     and resource adequacy. Maintain open
                                     dialog between the Board, Chief
                                     Enterprise Risk Officer (CERO), and
                                     general auditor. Be prepared to review
                                     criticality plans for integrating Providian’s
                                     risk management organization into
                                     WaMu’s, ensuring that staffing levels
                                     and expertise are commensurate with
                                     the risks and complexities of the
                                     combined organizations, and that strong
                                     risk controls remain in place through the
                                     integration process.

                                     Corrective actions
                                     Capital Adequacy: Implement the
                                     required Basel II/economic capital
                                     allocation model development monitoring



                Evaluation of Federal Regulatory Oversight of Washington Mutual Bank         Page 81
              Appendix 5
              OTS WaMu Examinations and Enforcement Actions



Date      CAMELS        Total      Significant safety and soundness              Enforcement
Exam      Rating       Assets      matters requiring board attention             Action
Started              ($billions)   and corrective actions cited in
                                   reports of examination
                                   actions set forth in the MRBA section of
                                   the report.
                                   Asset Quality: Implement the required
                                   actions set forth in the MRBAs. Monitor
                                   implementation of corrective actions
                                   initiated in response to the various
                                   findings memos issued during the
                                   examination.
                                   Management: Implement the required
                                   actions set forth in the MRBAs. Monitor
                                   implementation of corrective actions
                                   initiated in response to the various
                                   findings memos issued during the
                                   examination.
                                   Earnings: None.
                                   Liquidity: No findings memos were
                                   issued in this area; however,
                                   management is expected to follow
                                   through with its corrective actions
                                   initiated in response to the Internal Audit
                                   report on branch profitability.
                                   Sensitivity to Market Risk: Senior
                                   management and the Board should
                                   closely monitor progress on the pipeline
                                   and pricing control automation project
                                   and provide sufficient support to ensure
                                   timely implementation.
3-13-06   2/222222   $347          Matters requiring board attention             None
                                   Asset Quality – Subprime SFR
                                   Underwriting: Ensure that
                                   management follows through with its
                                   commitment to reduce underwriting
                                   deficiencies within established limits by
                                   December 31, 2006, through close
                                   monitoring of reviews performed within
                                   the business unit and overseen by ERM.
                                   Management – ERM: Continue to
                                   monitor and obtain reports from
                                   management on the status of ERM to
                                   ensure its effectiveness and adequacy of
                                   resources. Maintain open dialog
                                   between the Board, the CERO, and
                                   general auditor. ERM should provide an
                                   important check and balance on profit-
                                   oriented units and warrants strong Board
                                   commitment and support, particularly
                                   given the bank’s current strategy
                                   involving increased credit risk.



              Evaluation of Federal Regulatory Oversight of Washington Mutual Bank       Page 82
                Appendix 5
                OTS WaMu Examinations and Enforcement Actions



Date        CAMELS        Total      Significant safety and soundness             Enforcement
Exam        Rating       Assets      matters requiring board attention            Action
Started                ($billions)   and corrective actions cited in
                                     reports of examination
                                     Corrective actions
                                     Capital Adequacy: None.
                                     Asset Quality: Implement the required
                                     actions in the MRBA section of this
                                     report. In addition, monitor
                                     implementation of corrective actions
                                     initiated in response to the various
                                     findings memos issued during the
                                     examination.
                                     Management: Implement appropriate
                                     corrective action as agreed by
                                     management in their various written
                                     responses to findings memos issued
                                     during the examination.
                                     Earnings: None.
                                     Liquidity: None.
                                     Sensitivity to Market Risk:
                                     Management should implement the
                                     corrective actions set forth in the bank’s
                                     response to S&S Finding Memo #17.
  1-08-07   2/222212   $318          Matters requiring board attention            Cease & desist
                                     Asset Quality – Subprime SFR                 order related to
                                     Underwriting: Ensure that                    deficiencies in
                                     management reduces underwriting              BSA/AML on
                                     deficiencies to the tolerance levels         10/17/07.
                                     agreed upon in response to Asset
                                     Quality Findings Memo 3.
                                     Management – Enterprise Risk
                                     Management: Continue to monitor and
                                     receive reports on the status of ERM to
                                     ensure its effectiveness and that
                                     appropriate resources and support are
                                     provided for this function. Maintain open
                                     dialog between the Board, CERO, and
                                     general auditor. ERM should provide an
                                     important check and balance on profit-
                                     oriented units and warrants strong Board
                                     commitment and support.

                                     Corrective actions
                                     Capital Adequacy: None
                                     Asset Quality: (1) Ensure corrective
                                     actions as indicated in responses to
                                     various asset-quality findings memos are
                                     implemented in a timely manner and (2)
                                     implement required corrective actions
                                     identified in the MRBAs.
                                     Management: (1) Implement required



                Evaluation of Federal Regulatory Oversight of Washington Mutual Bank          Page 83
               Appendix 5
               OTS WaMu Examinations and Enforcement Actions



Date      CAMELS          Total      Significant safety and soundness             Enforcement
Exam      Rating         Assets      matters requiring board attention            Action
Started                ($billions)   and corrective actions cited in
                                     reports of examination
                                     actions set forth in the MRBA section of
                                     the ROE and the enforcement actions
                                     resulting from the Bank Secrecy Act
                                     (BSA) Anti-Money laundering (AML)
                                     deficiencies and civil money penalty
                                     resulting from the Commercial Flood
                                     Insurance violations and (2) implement
                                     the corrective actions agreed to by
                                     management in its written responses.
                                     Earnings: None.
                                     Liquidity: None.
                                     Sensitivity to Market Risk: None.
9-10-07   3/343432     $318          Matters requiring board attention            February 27, 2008,
                                     Asset Quality – SFR Lending:                 OTS required a
           Changed                   Conduct an independent review of the         Board Resolution
              to                     SFR lending process to determine             (informal
           4/343442                  whether weaknesses identified in the         enforcement
          on 9-18-08                 Corporate Fraud Investigation (April 4,      action) addressing
                                     2008) are systemic and to identify any       the general areas
                                     other internal control or underwriting       of concern in asset
                                     weaknesses. Develop a plan for               quality, earnings,
                                     correcting any weaknesses identified.        and liquidity. WaMu
                                     Asset Quality – ALLL: Continue to            adopted the
                                     refine and develop an effective ALLL         resolution on
                                     methodology and maintain an adequate         March 17, 2008.
                                     ALLL at all times.
                                     Management – Board Information:              July 2008, OTS
                                     Assess information provided to the           requested a
                                     Board to ensure that the Board receives      Memorandum of
                                     sufficient, consistent, and                  Understanding
                                     understandable information from              (MOU) (an informal
                                     management to appropriately assess the       enforcement
                                     bank’s risk.                                 action) to address
                                     Management – Board Committee                 the 2008
                                     Structure: Assess the current Board          examination
                                     committee structure to determine             findings; the MOU
                                     whether the risk factors are appropriately   was signed on
                                     delineated among current committees.         September 7,
                                     Management – ERM: Ensure that                2008.
                                     management develops an effective ERM
                                     function and that appropriate resources
                                     and support are provided for this
                                     function. ERM should provide an
                                     important check and balance on profit-
                                     oriented units and therefore warrants
                                     strong Board commitment and support.
                                     Management – Strategic Plan:
                                     Continue to develop and finalize the new



               Evaluation of Federal Regulatory Oversight of Washington Mutual Bank          Page 84
             Appendix 5
             OTS WaMu Examinations and Enforcement Actions



Date      CAMELS       Total      Significant safety and soundness              Enforcement
Exam      Rating      Assets      matters requiring board attention             Action
Started             ($billions)   and corrective actions cited in
                                  reports of examination
                                  strategic plan that is currently a work in
                                  progress.

                                  Corrective actions
                                  Capital Adequacy: Management must
                                  (1) update capital projections
                                  expeditiously to reflect any material
                                  change in the bank’s operating condition,
                                  but no less than quarterly and (2)
                                  maintain capital at internal capital levels
                                  agreed upon with OTS.
                                  Asset Quality:
                                  • Ensure that corrective actions
                                       indicated in the responses to the
                                       various Asset Quality related
                                       findings memoranda are
                                       implemented in a timely manner.
                                  • Perform an assessment of the
                                       control weaknesses related to SFR
                                       underwriting that were identified in
                                       the internal Corporate Fraud
                                       investigations Report (April 2008)
                                       and correct all deficiencies noted.
                                  • Continue to refine and develop an
                                       effective ALLL methodology.
                                  • Ensure that ALLL is maintained at an
                                       adequate level at all times.
                                  • Cease “stated income” lending for all
                                       mortgage loans and all other loans
                                       over $50,000.
                                  • Ensure that the bank adequately
                                       documents the borrower’s ability to
                                       pay on all non-mortgage loans over
                                       $50,000.
                                  Management:
                                  • Implement the actions set forth in the
                                       MRBA section of this report.
                                  • Ensure full compliance with the
                                       requirements of all outstanding
                                       enforcement actions.
                                  • Implement the corrective actions
                                       agreed to by management in the
                                       written responses to findings memos
                                       issued during the examination.
                                  • Submit the Strategic Business Plan
                                       as requested.
                                  • Strengthen the Compliance Manager
                                       position.


             Evaluation of Federal Regulatory Oversight of Washington Mutual Bank       Page 85
             Appendix 5
             OTS WaMu Examinations and Enforcement Actions



Date      CAMELS       Total      Significant safety and soundness           Enforcement
Exam      Rating      Assets      matters requiring board attention          Action
Started             ($billions)   and corrective actions cited in
                                  reports of examination
                                  Earnings: Monitor actual versus
                                  projected operating results and keep
                                  OTS informed of material differences.
                                  Liquidity:
                                  • Cure violations of the WaMu
                                      Liquidity Management Standard as
                                      soon as possible, but no later than
                                      October 30, 2008. Maintain
                                      sufficient liquidity thereafter.
                                  • Improve reporting of uninsured
                                      deposits and brokered deposits in
                                      liquidity risk reports to management
                                      and the Board, as detailed in SS
                                      Memo #6 – Liquidity Risk Reporting.
                                  Sensitivity to Market Risk:
                                  • Enhance the net portfolio value
                                      (NPV) modeling process particularly
                                      relating to Option adjustable rate
                                      mortgages (ARM) loan and subprime
                                      loan valuations.
                                  • Introduce non-parallel stress
                                      scenarios to complement the
                                      existing parallel shift stress
                                      scenarios within the Downside Net
                                      Interest Margin measure.




             Evaluation of Federal Regulatory Oversight of Washington Mutual Bank    Page 86
          Appendix 6
          Management Response




                                              March 30, 2010

MEMORANDUM FOR:                 Eric M. Thorson
                                Inspector General
                                Department of the Treasury

                                Jon T. Rymer
                                Inspector General
                                Federal Deposit Insurance Corporation

FROM:                           John E. Bowman /s/
                                Acting Director


SUBJECT:                        Draft Audit Report on the “Evaluation of Federal Regulatory
                                Oversight of Washington Mutual Bank”

Thank you for the opportunity to comment on your draft audit report entitled “Evaluation of
Federal Regulatory Oversight of Washington Mutual Bank.” We received the draft report on
March 16th, and previously had an opportunity to review a discussion draft of the report. The
report focuses on causes of the failure of Washington Mutual (Wamu), the Office of Thrift
Supervision’s (OTS) supervision of Wamu, and the Federal Deposit Insurance Corporation’s
(FDIC) monitoring of Wamu and assessment of insurance premiums.

The closure of Wamu approximately a year and a half ago during the middle of the recent
economic downturn resulted in no loss to the Deposit Insurance Fund (DIF). Since there was no
loss to the DIF, a material loss review (MLR) was not mandated under Section 38(k) of the
Federal Deposit Insurance Act. 12 U.S.C. 1831o(k). We understand that your offices undertook
this joint review as an exercise in good government.

The draft audit report makes one recommendation to OTS:

      Specifically, OTS should use its own internal report of examination system to formally
      track the status of examiner recommendations and related thrift corrective actions.

Draft report at pp. 4 and 55.




    Evaluation of Federal Regulatory Oversight of Washington Mutual Bank     Page 87
         Appendix 6
         Management Response




Page 2
OTS is committed to strengthening its supervisory process and has been responsive to
recommendations and lessons learned from both prior internal failed bank reviews and MLRs by
Treasury’s Inspector General.

OTS fully concurs with the report’s one recommendation stated above and already has systems in
place to implement that recommendation. In October 2007 a new follow up function was added
to OTS’s internal Examination Data System/Reports of Examination (EDS/ROE) to require
examiners and other Regional staff to associate dates and comments with matters requiring board
attention and other material matters identified during an examination that require follow-up.
Five new reports were added to EDS/ROE (Summary, List View, History, Reason Summary and
an Excel spreadsheet report) to provide staff with the tools necessary to monitor follow up items.
This follow-up system is well populated and actively used by staff and monitored by senior
management.

In the case of Wamu, the centralized internal follow up system was not fully utilized when it
became available in late 2007 for a variety of reasons. OTS management is unaware of any other
OTS-regulated institution that is not tracked in the OTS internal follow-up system.

Thank you again for the opportunity to review and respond to your draft report. We appreciated
the professionalism and courtesies provided by the staff of both Offices of Inspector General.
We look forward to reading your report on objective 4 of this review, noted at p.2, regarding the
assessment of the resolution process regarding Wamu.

cc: Sheila C. Bair
   Chairman, FDIC




    Evaluation of Federal Regulatory Oversight of Washington Mutual Bank      Page 88
             Appendix 6
             Management Response



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                                       Office of the Chairman

                                                                            March 30, 2010

 TO:               John T. Rymer, Inspector General
                   Federal Deposit Insurance Corporation

                   Eric M. Thorson, Inspector General
                   Department of the Treasury

 FROM:             Sheila C. Bair, Chairman /Signed/
                   Federal Deposit Insurance Corporation

 SUBJECT: FDIC Response to the Evaluation of Federal Regulatory Oversight of
          Washington Mutual Bank

         Thank you for the opportunity to review and comment on the joint Offices of Inspector
 General (OIG) report entitled, Evaluation of Federal Regulatory Oversight of Washington
 Mutual Bank (Report No. EVAL-10-002). The report identifies impediments to the FDIC’s
 back-up supervisory authority inherent in the interagency agreement governing information
 sharing that limit the FDIC’s ability to assess the potential risk of an institutional failure and the
 resulting impact on the Deposit Insurance Fund (DIF). The report also notes concerns about the
 FDIC’s reliance on CAMELS ratings for the purpose of establishing risk-based premiums for
 deposit insurance coverage. It includes recommendations to address both issues.

         The FDIC has also been concerned about these issues, particularly with respect to large
 depository institutions that pose significant risk to the DIF, and FDIC staff has been working for
 some time on proposals to address both of these concerns. The report specifically recommends
 that the FDIC “revisit the interagency agreement governing information access and back-up
 examination authority for large insured depository institutions to ensure it provides the FDIC
 with sufficient access to information necessary to assess risk to the DIF.” The FDIC agrees with
 this recommendation and has been actively working with the other primary federal regulators
 (PFRs) to develop modifications to the agreement that will provide the FDIC with greater access
 to information about the risks posed by these institutions.

         Proposed new memoranda of understanding with each of the other PFRs will be
 presented to the Board of Directors for its approval in the near future. The revised memoranda
 of understanding will clearly define for large depository institutions with $10 billion or more in
 assets (a) the extent of the FDIC on-site presence at these institutions; (b) the type of information
 that will be shared; and (c) the extent of FDIC access to information, the PFR and bank
 personnel. We are hopeful that agreements can be reached in the near future. In any event,
 please be assured that the FDIC is committed to using all available legal authority to acquire
 timely access to information related to the risks that institutions pose to the Deposit Insurance
 Fund.




      Evaluation of Federal Regulatory Oversight of Washington Mutual Bank         Page 89
         Appendix 6
         Management Response




        The report also recommends that the FDIC “revisit the FDIC Deposit Insurance
Regulations to ensure those regulations provide the FDIC with the flexibility needed to make its
own independent determination of an institution’s risk to the DIF rather than relying too heavily
on the primary regulator’s assignment of CAMELS ratings and capital levels.” The FDIC also
agrees with this recommendation and has been developing for consideration by the Board of
Directors a proposed new deposit insurance pricing system for large banks that better
differentiates risks and does not rely on external ratings. I fully expect that a new pricing system
will be adopted soon by the Board, following the completion of appropriate rulemaking
processes, and will be implemented by the end of the year.

        In closing, I would like to reaffirm the FDIC’s determination to move quickly to address
the lessons learned from the current financial crisis and to strengthen its overall financial
regulatory framework. The recommendations in the joint OIG report are an important
component of that effort.

cc: John E. Bowman, Acting Director
    Office of Thrift Supervision




    Evaluation of Federal Regulatory Oversight of Washington Mutual Bank        Page 90
Appendix 7
Major Contributors to this Report




FDIC OIG Headquarters

Margaret B. Wolf, Senior Audit Specialist
Ann R. Lewis, Senior Audit Specialist
Diana L. Chatfield, Program Analyst
Adriana Rojas, Associate Counsel

E. Marshall Gentry, Acting Assistant Inspector General for Evaluations

Treasury OIG Boston Office

Maryann Costello, Senior Auditor
Jason E. Madden, Auditor

Donald P. Benson, Audit Director

Treasury OIG Headquarters

Marla A. Freedman, Assistant Inspector General for Audit
Robert A. Taylor, Jr., Deputy Assistant Inspector General for Audit

Referencers

Jill A. Lennox, FDIC OIG
Erin K. Shea, FDIC OIG
Corinne M. Moriarty, FDIC OIG




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 91
Appendix 8
Final Report Distribution



The Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Federal Deposit Insurance Corporation

    Chairman
    Board of Directors
    Director, Division of Supervision and Consumer Protection
    Director, Division of Insurance and Research
    Director, Office of Enterprise Risk Management

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Members
    Committee on Banking, Housing, and Urban Affairs
    Committee on Finance
    Permanent Subcommittee on Investigations, Committee on
    Homeland Security and Governmental Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Comptroller General of the United States

    Acting Comptroller General




Evaluation of Federal Regulatory Oversight of Washington Mutual Bank   Page 92
